<html>
<title> - DANGEROUS CLIMATE CHANGE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






                        DANGEROUS CLIMATE CHANGE

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2007

                               __________

                            Serial No. 110-2


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
57-965                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















       SELECT COMMITTEE ON ENERGY INDEPENDENCE AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr. a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
    Prepared statement...........................................     7
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................     9
    Prepared statement...........................................    10
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................    12
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, prepared statement..............................    14
Hon. Emanuel Cleaver, II, a Representative in Congress from the 
  State of Missouri, prepared statement..........................    17

                               Witnesses

Dr. Judith A. Curry, Professor and Chair, School of Earth and 
  Atmospheric Science, Georgia Institute of Technology...........    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................   122
Dr. Camille Parmesan, Associate Professor of Integrative Biology, 
  University of Texas at Austin..................................    39
    Prepared statement...........................................    42
    Answers to submitted questions...............................   126
Dr. Kristie L. Ebi, ESS, LLC and Lead author Human Health 
  chapter, IPCC 4th Assessment, Working Group II.................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   132
Dr. John A. Helms, Professor Emeritus of Forestry, University of 
  California, Berkeley, 2005 President, Society of American 
  Foresters......................................................    65
    Prepared statement...........................................    67
    Answers to submitted questions...............................   136
Dr. James E. Hansen, Director, NASA's Goddard Institute for Space 
  Studies........................................................    72
    Prepared statement...........................................    75

                           Submitted Material

Hon. Edward J. Markey, letter of May 9, 2007, from Dr. Judith 
  Curry..........................................................   141
Independent Summary for Policymakers: IPCC Fourth Assessment 
  Report, of February 2007.......................................   143

 
                        DANGEROUS CLIMATE CHANGE

                              ----------                              --
--------


                        THURSDAY, APRIL 26, 2007

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10 a.m. in Room 
2172, Rayburn House Office Building, Hon. Edward J. Markey 
(chairman of the committee) presiding.
    Present: Representatives Markey, Inslee, Solis, Herseth 
Sandlin, Cleaver, Hall, McNerney, Sensenbrenner, Shadegg, 
Walden, Sullivan, Blackburn and Miller.
    The Chairman.  This hearing is called to order, and we 
thank you for joining us today as we examine the critical 
issues surrounding dangerous climate change.
    Members of the Select Committee have been entasked by the 
Speaker to become experts on global warming. But a 
congressional expert is an oxymoron like jumbo shrimp or McLean 
night life. There is no such thing when compared to real 
experts who can come to help illuminate these issues.
    In 1992, President George Herbert Walker Bush signed and 
the Senate ratified the U.N. Framework Convention on Climate 
Change. By signing it, the United States, along with 188 other 
countries, committed to stabilizing greenhouse gas 
concentrations in the atmosphere at a level that would prevent 
dangerous and trophogenic interference with the climate system.
    But what is dangerous climate change and what are its 
consequences? How closer are we to it? What can we do to avoid 
it? The answers to these questions are critical as this 
Congress develops legislation to enhance our energy 
independence and to combat global warming. But let us start 
with what we already know.
    Two hundred years ago, America's industrial revolution 
changed the economy, society of our country and the world; and 
it also began to change the air around us, powered by the 
burning of fossil fuels, first coal and now oil and natural 
gas. The energy we have used since that time has caused an 
increase in heat, trapping carbon dioxide in the atmosphere; 
and it turns out that when it comes to global warming, small 
changes make a big difference.
    Since the industrial revolution, carbon dioxide 
concentrations have risen from 280 parts per million to 380 
parts per million. It doesn't sound like much, but neither does 
a degree or two in your body temperature. On a normal day, when 
you are feeling fine, your temperature is 98.6. But when your 
temperature is raised a very small amount, to 101.6, for 
example, just three degrees, you feel lousy. You would stay 
home in bed and not go to work. But raise it yet another degree 
or two, and you would be in the hospital.
    Right now, our planet has a temperature; and we are seeing 
the symptoms on every continent and in the oceans. Glaciers are 
melting, sea level is rising, hurricanes are stronger, heat 
waves are more deadly, forest fires are more intense, entire 
species are disappearing. Absent strong national leadership, we 
are heading for 480 parts per million and beyond; and, as you 
know, there is no hospital for sick planets.
    If we continue to spew global warming pollution from our 
smokestacks and tailpipes, we will alter the very face of the 
earth and its inhabitants. For example, the Greenland ice 
sheet, which is larger than the State of Alaska and two miles 
thick in places, is increasingly in jeopardy. During the melt 
season, in one day enough ice breaks off in one large glacier 
in Greenland to supply water to New York City for a year. If 
the ice cap were to fully melt, sea level would rise 21 feet.
    In the southern hemisphere, parts of Antarctica which 
contain similar amounts of water locked away as ice also appear 
vulnerable. Higher sea levels, rising storms from rising ocean 
temperatures will render many of the world's coastal areas, 
home to over a billion people today, uninhabitable. Rising 
temperatures will disrupt water supplies, agriculture and 
forestry, confounding public health gains in the poorest parts 
of the world; and creatures and cultures that thrive in the 
coldest parts of the earth may be unable to adapt and simply 
cease to exist.
    Today's witnesses will make clear the urgent need to adopt 
policies that prevent the concentration of global warming 
pollution from rising to catastrophic levels and the necessity 
to prepare for those impacts that we can no longer avoid. If we 
are to avoid the worst impacts, we must act now; and that will 
be the intention of the Chair.
    So let us at this point turn, and I will recognize the 
gentleman from Wisconsin, Mr. Sensenbrenner, the ranking member 
of the committee.
    [The statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Sensenbrenner.  Thank you very much, Mr. Chairman.
    The title of today's hearing sounds a little like a scary 
movie: Dangerous Climate Change. We have seen this film before; 
and it stars industrialized society, a character who improves 
the livelihood of billions of humans by providing them with 
vital jobs and services. But in this movie industry is actually 
the villain, with an evil plan to destroy the Earth with 
invisible, odorless gasses.
    Our hero, Al Gore, sounds like an intrepid detective who 
has dug through the science and uncovered this nefarious plot. 
Naturally, our protagonist has a heroic way to defeat the 
villain: raise taxes.
    Yes, the climate is changing; and human behavior bears some 
responsibility. But scientific predictions on whether these 
changes will be on the margin or the extremes or somewhere in 
between remains a question. Without predicting catastrophe, it 
is hard to advocate a tax hike.
    As I said at least week's hearing, I firmly believe that 
many of these gloom-and-doom scenarios are Hollywood-style 
sketches of scientific data that, when studied closely, 
presents a much more sober and thoughtful picture; and while 
extremist scenarios haven't helped us make much progress in 
more than a decade of climate change to be, they made for one 
scary script.
    I am pleased that one of our witnesses today, Dr. John 
Helms, offers climate change solutions that will not only 
protect American jobs but also give us healthier forests. I 
would like to thank Congressman Walden for bringing Dr. Helms 
to the Congress' attention; and I look forward to his 
testimony, even as a Stanford grad, hearing some wisdom from 
someone who has taught at Berkeley.
    As a member of the House Science and Technology Committee 
for nearly three decades and as chairman of that committee for 
4 years, I have developed a healthy respect for scientists when 
they are presenting the facts and answering specific questions 
posed by decision makers.
    Scientists are also entitled to step beyond that role and 
advocate policy. But when they do so, they are stepping out of 
the scientific debate and into the political debate, where jobs 
and the economy have to be considered along with scientific 
data. And once scientists step into the political debate by 
advocating policy, then their legitimacy and motives are open 
for questioning, just like we politicians.
    One of our witnesses today, Dr. James Hansen, has chosen to 
wade into the political debate by making these sort of policy 
proposals, and I welcome him. I also welcome realistic 
proposals that will help us with energy and independence and 
global warming, but any proposal must contain four key 
principles:
    First, it must bring tangible environmental benefits to the 
American people; second, it must support advancing technology, 
including technologies across the energy spectrum from nuclear 
to clean coal to renewable to improved energy efficiencies; 
third, any climate change policy must protect U.S. jobs; and, 
fourth, it must require global participation.
    This year, China will pass the United States of America as 
the largest emitter of CO<INF>2</INF>. In creating global 
warming hysteria, the authors of that scary screenplay have 
stuck to a structurally very simple script. But we in Congress 
know that the story is much more complex than that. The title 
of our movie, Protect the Economy and the Environment, may not 
sell as many tickets or win an Oscar, but it is a common-sense 
plot that most Americans can understand and support.
    I yield back the balance of my time.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  The Chair will now recognize members for 2 
minutes for opening statements or, if they wish, they can 
reserve their 2 minutes and it would be added to the 5 minutes 
that they have for questioning of the witnesses.
    The Chair recognizes the gentlelady from California, Ms. 
Solis.
    Ms. Solis.  Thank you, Mr. Chairman; and I welcome this 
discussion today on the dangers of climate change because, you 
know, the attitude in my district right now and when we survey 
people is they are extremely concerned about what is happening 
globally to the temperature changes in my district.
    I represent Los Angeles County, a large number of 
underrepresented communities, Hispanic, Asian American, part 
African American. Many are extremely concerned with the trends 
we are seeing: Heat waves that we have experienced in the last 
few years in Los Angeles, what we think is coming is a drought. 
There is a shortage of rainfall.
    We see also our at-risk populations at a higher level of 
asthma, respiratory diseases. We also see more people having 
fewer abilities to go outdoors and recreate, to have open 
space. So, yes, there is a need to look at what is happening in 
our communities and especially communities of color. Urban 
centers as well as rural areas, they are also experiencing 
drought.
    And I say that because agriculture is very important to our 
community and our economy. Many of the people that work in that 
industry happen to be three-quarters Latino. They are the ones 
that pick your fruits and vegetables. But if there isn't ample 
protection for them to work in the fields, if there is no water 
irrigation, the temperatures are too hot, you are going to see 
those failed policies of having people out there getting our 
fruit, our vegetables to us. So, yes, indeed there are some 
very pressing issues for us to look at.
    You know, last year in one of our committees--we tried to 
offer in the Energy and Commerce Committee through the Energy 
Policy Act in 2005--I offered an amendment to talk about 
climate change in the wake of major heat waves in California, 
Nevada, and Arizona. My amendment would have required that any 
use of public funds would develop greenhouse gas technologies 
in the U.S. or developing countries. Unfortunately, my 
amendment failed at that time; and I wish that we would have 
begun to present the health impacts to our most vulnerable 
communities, including the elderly and young children.
    I hope that you will hear and glean some great information 
from our witnesses.
    Thank you very much, Mr. Chairman.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chairman.  The Chair recognizes Mr. Shadegg.
    Mr. Shadegg.  I will reserve.
    The Chairman.  The Chair recognizes the chairman from 
Oregon, Mr. Walden.
    Mr. Walden.  Thank you, Mr. Chairman. I, too, will reserve 
my time.
    The Chairman.  The time will be reserved.
    The Chair recognizes the gentleman from Oklahoma.
    Mr. Sullivan.  I, too, will reserve.
    The Chairman.  The gentleman's time is reserved.
    The Chair recognizes the gentlelady from Michigan.
    Mrs. Miller.  Thank you. I will reserve my time as well.
    The Chairman.  And the Chair recognizes the gentlelady from 
Tennessee.
    Mrs. Blackburn.  I will reserve my time.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  The Chair recognizes the gentlelady from 
South Dakota, Ms. Herseth Sandlin.
    Ms. Herseth Sandlin.  I will reserve my time.
    The Chairman.  The Chair recognizes the gentleman from 
Texas, Mr. Hall.
    Mr. Hall.  I will reserve my time.
    The Chairman.  And the Chair recognizes the gentleman from 
California, Mr. McNerney.
    Mr. McNerney.  I will reserve.
    The Chairman.  Great.
    The gentleman's time is reserved, and it will be added to 
his question time.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    All time for opening statements from members has concluded.
    [Prepared statement of Representative Cleaver is as 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    We will now turn to our distinguished panel.
    The Chairman.  Our first witness is Dr. Judith Curry, who 
is a Professor and Chair of the School of Earth and Atmospheric 
Science at the Georgia Institute of Technology. She is an 
expert in various aspects of climate science. Her work has most 
recently focused on the variability of hurricanes in the North 
Atlantic and around the world. She has published over 140 
referee journal articles and is a Fellow of both the American 
Meteorologic Society and the American Geophysical Union.
    We welcome you, Dr. Curry. You have 5 minutes to make an 
opening statement.

 STATEMENT OF JUDITH A. CURRY, GEORGIA INSTITUTE OF TECHNOLOGY

    Ms. Curry.  I thank the chairman of the committee for the 
opportunity to offer testimony this morning.
    The devastating 2004 and 2005 hurricane seasons, and 
particularly Hurricane Katrina, for the first time made the 
public realize that one degree of warming could potentially 
have dangerous consequences if this warming made future 
hurricanes like Katrina more likely.
    Next.
    In the last several months, two important assessments have 
been issued. Statements made by the World Meteorological 
Organization and the Intergovernmental Panel for Climate Change 
have assessed and clarified what we do know about hurricanes 
and global warming and also the associated uncertainties.
    I would like to begin by presenting some of the data on 
North Atlantic hurricanes that support these two statements 
from the ICCP's report.
    This diagram shows the historical data record of the number 
of North Atlantic tropical cyclones back to 1851, which is 
indicated by the dark blue curve. Also shown in this diagram is 
the average tropical sea surface temperature in the North 
Atlantic in red. This diagram shows a remarkable coherence in 
variations in the number of storms with sea surface 
temperature. In particular, the period 1910 to 1920 with low 
storm activity is associated with anomalously cool sea 
temperatures, while the largest number of tropical cyclones is 
seen during the past decade when the sea surface temperatures 
have been the warmest.
    This figure illustrates the change in the intensity 
distribution for the North Atlantic since 1970. The data has 
been divided into three different periods, including the active 
period since 1995. Each bar represents the frequency occurrence 
of a different category of storm intensity. The most striking 
aspect of the histogram is the substantial increase in the 
frequency of Category 4 hurricanes during the period since 
1995.
    The highest resolution climate model simulations capable of 
resolving individual hurricanes have been made using the 
Japanese earth simulator computer and also by a European group. 
The results of these simulations for a climate that is warmer 
by about 2.5 degrees centigrade or 5 degrees Fahrenheit show a 
30 percent increase in the number of North Atlantic tropical 
cyclones, a 10 percent increase in average tropical cyclone 
intensity and a 30 percent increase in the number of major 
hurricanes.
    In the North Atlantic, there is a prospect of substantially 
elevated hurricane activity in the next few decades owing to 
the combination of global warming and the active phase of the 
North Atlantic multi-decadal oscillation. To estimate the 
combined impacts of global warming and the natural 
variabilities, I have constructed a simple statistical model 
that projects an average number of 15 to 20 tropical cyclones 
per year, with three to four of them reaching the strength of 
Category 4 to 5.
    The combination of greenhouse warming and natural 
variability will produce tropical cyclone activity in the 
coming decades that is unprecedented. The impact of such 
elevated hurricane activity includes an increased number of 
intense storms striking the gulf coast with increased level of 
storm surges plus inland flooding and tornadoes.
    The combination of coastal demographics with increased 
hurricane activity will continue to escalate the socioeconomic 
impact of hurricanes.
    How should policymakers react to this risk? As a scientist, 
I do not get involved in advocating for specific policies. I am 
limiting my comments here to a general assessment of how 
certain policies strategies might affect the risks associated 
with increased hurricane activity as global temperatures 
continue to rise.
    Specifically, with regards to energy policy, any 
conceivable policy for reducing carbon emissions is unlikely to 
have a noticeable impact on sea surface temperatures and 
hurricane characteristics over the next few decades. Rather, 
carbon mitigation strategies will only impact the longer-term 
effects of global warming, including sea level rise and the 
associated storm surges.
    Particularly in the U.S., we are facing a very serious risk 
in the next few decades, owing to the combination of global 
warming and the active phase of the Atlantic multi-decadal 
oscillation. Adaptation measures are urgently needed to 
confront the vulnerability, particularly of our coastal 
regions. Decreasing our vulnerability to damage from hurricanes 
will require a comprehensive evaluation of coastal engineering, 
building construction practices, insurance, land use, emergency 
management and disaster relief policies.
    Thank you.
    The Chairman.  Thank you, Dr. Curry.
    [The statement of Judith Curry follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  Our second witness, Dr. Camille Parmesan, is 
an Associate Professor of Biology at the University of Texas in 
Austin. Her landmark paper on nature and the impact of climate 
change on natural systems around the world established her as 
one of the foremost experts on the response of wildlife to 
global warming.
    She is currently Chair of the International Conservation 
Unions Task Force on Climate Change and Conservation, and she 
has served as author and reviewer of reports by the 
Intergovernmental Panel on Climate Change and as an expert 
adviser for the National Assessment of the Potential 
Consequences of Climate Variability for Change of the United 
States.
    Welcome, Dr. Parmesan. Whenever you feel comfortable, 
please begin.

     STATEMENT OF CAMILLE PARMESAN, ASSOCIATE PROFESSOR IN 
       INTEGRATIVE BIOLOGY, UNIVERSITY OF TEXAS AT AUSTIN

    Ms. Parmesan.  Thank you.
    This is working good.
    Well, I think to address the question of dangerous climate 
change, it is--we can learn a lot by examining what has already 
happened with the amount of warming that we have currently had.
    We don't have a huge number of biological studies for the 
U.S.A., but if you look globally, there are hundreds of 
studies, literally, reviewed. I just finished looking at 866 
papers, and this is a minimum estimate because I only looked at 
major English journals. This represents thousands of species. 
We have seen impacts in every single continent in every single 
ocean, and when you look at analyses that have estimated what 
percentage of species have already been impacted we see that 50 
percent of all species studied with long-term data have shown 
some sort of response to recent climate change. And by 
``recent'' I mean of the past 100 years. This is a huge number, 
considering the amount of warming has only been 0.7 degrees 
centigrade, about a degree Fahrenheit.
    It is a--these changes have been in every major biological 
group that has been studied, from herbs to trees, plankton in 
the ocean, lakes, fish, insects, mammals. Pretty much every 
type of organism that you have got long-term data on has shown 
a response; and, again, it has been about 50 percent in each of 
those groups.
    This and several synthetic global analyses that have been 
published in the scientific literature have led to a very 
strong consensus amongst biologists that recent warming, this 
0.07 degree centigrade, has indeed impacted natural systems. It 
has been the cause of the changes that we have been seeing.
    And in the IPCC reports what you see is that the level of 
confidence of that now mirrors the level of confidence that 
climate scientists have that the warming is caused by humans, 
and both of those are put at more than 90 percent sure. But I 
can tell you if you look into the individual biological 
literature you will see that several analyses indicate that the 
kinds of patterns that we are seeing globally in wild species, 
there is less than 0.1 percent of a chance that those changes 
are due to something other than climate change.
    These are very, very strong numbers.
    Okay. Now I would like to show you, if you could go to the 
next slide, just very quickly a few of the examples. A lot of 
them are more detailed in the written testimony.
    So this is again what we have already seen. This is showing 
shifts in phenology, shifts in changes in spring timing. 
Everything above that vertical line are later breeding or 
emergence or arrival. Everything below it is earlier emergence 
or breeding or arrival in the spring.
    And the first thing I want to point out is, when you look 
at the average--so where there has been an advancement of 
spring events by 2 point days by decade on average, several 
studies have estimated this. But what I want to show you is 
this is a subset of studies that looked at whole communities, 
and you can see that there is large variability. In some 
species--those individual bars, each a different species--some 
species are showing very strong advancement. In butterflies and 
birds, you are seeing advances--that is the blue and the 
yellow--of 10 to 20 days per decade advancement in spring 
breeding. And if you look at the purple--those are frogs--
summer breeding as early as 35 days earlier per decade. So if 
you look over the past 30 years we have had warming, that is an 
enormous advancement in spring events.
    We are also seeing massive rain shifts, and so two of the 
consistent patterns are these earlier spring timing.
    The other very consistent pattern globally is massive 
northward shifts of species ranges and upward shifts in 
mountainous ranges. And this is starting to actually affect 
whole biums. So we are seeing tropical species moving up from 
Mexico and Africa into Europe and into the U.S.A. We are seeing 
tempered species of the U.S.A. And Europe moving up into boreal 
zones of Canada, Alaska and Lapland; and we are seeing those 
boreal species actually contracting towards basically no man's 
land as the warming has continued.
    This--you would think that tropical species might be 
resistant, so perhaps the whole earth is just going to be 
tropical, but coral reefs are actually already at their high 
temperature limits, and 30 percent have been killed off by 
recent high sea surface temperature events.
    This is just showing that when you go to the cold adaptive 
species is where you see the other drastic declines. You don't 
see the graphics, but this is polar bears in the Arctic and 
green seals, things that are sea ice dependent. You go down to 
Antarctica, you see the same things in sea ice dependent 
species, massive declines and contractions towards the poles.
    You don't get to see all of the pretty pictures of pikas, 
but what this is meant to show you is that the other type of 
cold-adapted species are mountaintop species; and we are seeing 
contractions of range as species are forced up mountains. 
Literally, it is getting too hot at the lower elevations, and 
we are starting to see the first whole-species extinctions.
    So these are tropical highland frogs. Seventy-four species 
have gone extinct in the Cloud Forest of Central America. These 
are remote areas, undisturbed areas. These distinctions have 
been directly related to warming trends in those regions. And I 
do want to remind people that these brightly colored tropical 
frogs have provided us with a huge number of medicines, and 
particularly heart medicines.
    The Chairman.  Doctor, could you try to summarize it?
    Ms. Parmesan.  All of these changes I have been talking 
about are with 0.7 degrees centigrade warming.
    So what happens with 1 or 2 degrees centigrade or 4 to 5 
degrees centigrade?
    What this shows you is a time line going back 65 million 
years. The blue colors are colder than now. The red colors are 
hotter than now. And what you see is if you--I don't know if 
you can read this--but humans first appeared during that middle 
part of the graph during this cold earth period. So the entire 
time humans, homo sapiens, our species, have been around, the 
earth has primarily been colder than now.
    Modern civilization, agriculture, the arts, et cetera, 
appeared when climate stabilized about 10,000 years ago. The 
little blips in the middle with the stars are 1 to 2 degrees 
higher temperature. There have been tiny blips where you have 
had human-like species around. But if you go back to where it 
has been 4 or 5 degrees centigrade warmer--that is all the way 
to the last third of the graph, that red arrow there--what you 
are getting to is a time when a lot of modern species did not 
exist. There was a completely different bium; and when the 
earth shifted from that hotter to the colder, you did have 
massive loss of species, about 20 to 30 percent.
    And I think I will leave it at that.
    The Chairman.  I thank you very much.
    [The statement of Ms. Parmesan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  Our next witness is Dr. Kristie Ebi. She is 
an independent consultant working with the World Health 
Organization, the United Nations Development Program and USAID. 
She has been working on global climate change and public health 
issues for years. She is the author of three books. She is the 
lead author for the Human Health Chapter of the 
Intergovernmental Panel on Climate Change's recent Fourth 
Assessment Report.
    We welcome you.

             STATEMENT OF KRISTIE L. EBI, ESS, LLC

    Ms. Ebi.  Mr. Chairman and members of the select committee, 
I really appreciate the opportunity to talk with you today.
    The determination of when a risk becomes dangerous, such as 
anthropogenic climate change, is a social choice. It is my role 
as a scientist to inform that decision by describing the state 
of scientific knowledge.
    People, plants, and animals are exposed to climate change 
through changing weather patterns such as more frequent and 
intense heat waves and floods and through climatic changes 
facilitating the geographic spread and increase our number of 
cases of a variety of infectious diseases as well as diseases 
associated with air pollutants and air allergens.
    Population health integrates climate change impacts across 
all other sectors, such as changes in water availability, crop 
yields, and ecosystem changes and thus is a key sector for 
assessing the risk of climate change.
    Human injuries, illnesses and deaths are already occurring 
due to climate change right now. Currently, approximately 
150,000 deaths worldwide are attributed to climate change 
annually, with most of these deaths occurring in low- and 
middle-income countries.
    Although 150,000 worldwide may not seem like a very large 
number, the number of life years lost is already about half of 
what we are seeing due to urban air pollution. The 150,000 is 
about 0.4 percent of all life years lost every year. This means 
that, together, between climate change and urban air pollution, 
approximately 1.2 percent of all life years lost are due to the 
combustion of fossil fuels.
    As noted, I am an author of the Human Health Chapter of the 
Intergovernmental Panel on Climate Change for its assessment 
report, and we concluded that projected trends in climate-
change-related exposures will have predominantly negative 
impacts, with injuries, illnesses and deaths occurring within 
all continents. These include increasing undernutrition and 
consequent disorders, including those related to child growth 
and development; increasing injuries, illnesses and death due 
to heat waves, floods, droughts, storms and fires; increasing 
numbers of cases of diarrheal diseases; increasing 
cardiorespiratory diseases where ozone exposure concentrations 
increase; and increase in the geographic range and length of 
transmission season of malaria in some regions and a decrease 
in the range of others.
    Climate change has projected to bring some benefits to 
health, including fewer deaths due to exposure to cold, but 
these will not offset increased heat-related deaths.
    Most of the impacts will occur in low- and middle-income 
countries, with the extent of the impacts increasing with 
increasing climate change.
    Critically important to an assessment of what constitutes 
dangerous climate change is that the inherent inertia in the 
climate system means that weather and climate will continue to 
change, and health impacts will continue to occur for decades 
after stabilization of atmospheric concentration of greenhouse 
gasses. This is the commitment that we are already facing.
    The health impacts of climate change will stress over-
stretched public health programs and health care systems. It 
will not be possible to avoid all health impacts due to climate 
change, even with immediate implementation with effective 
adaptation, policy measures and aggressive reduction in 
greenhouse gas emissions. Adaptation and mitigation are 
urgently needed to manage the risk of current and projected 
climate change impacts.
    Recent experiences such as the 2003 heat wave in Europe 
have shown the ability to plan for and cope with climate change 
needs to be improved everywhere.
    Most impacts will not be as dramatic as these events. For 
example, we can expect more periods of heavy rain such as the 
storm in D.C. last fall that closed several government 
buildings for a few days. Because adaptation will be a 
continual process and will be required at every level, one 
policy response would be to mandate U.S. agencies, such as the 
Environmental Protection Agency, the Centers for Disease 
Control and Prevention and Fisheries and Wildlife to 
incorporate climate change risks into the programs and 
activities that are or could be affected by climate change and 
to provide them with the human and financial resources to do 
so. This mandate should include developing a more complete 
understanding of the risks that Americans may face over the 
coming decades.
    In addition, I believe that the U.S. should have a central 
agency responsible for working with other agencies, States, 
communities, businesses and others to understand climate change 
risks and responses. This agency could provide expertise and 
decision with support tools to understand local and regional 
climate change projections as well as adaptation and mitigation 
options. One model is the U.K. Climate Impact Program, which is 
now in its tenth year.
    Thank you very much.
    The Chairman.  I thank you. And, again, I think you are 
going to have plenty of opportunity to elaborate during the 
question and answer period.
    [The statement of Ms. Ebi follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  Our next witness is Dr. John Helms, who is a 
Professor Emeritus at the University of California, Berkeley; 
and he is an expert in forestry and resource management. He has 
published numerous technical papers; and, in addition to the 
United States, he has worked on forestry issues in Sweden, 
Germany, Switzerland, Australia, Siberia and China. In 2005, he 
served as President of the Society of the American Foresters 
and is currently a member of the Board of Directors of the 
California Forest Products Commission.
    We welcome you, Doctor, whenever you feel comfortable, 
please begin.

  STATEMENT OF JOHN A. HELMS, PROFESSOR EMERITUS OF FORESTRY, 
 UNIVERSITY OF CALIFORNIA, BERKELEY, AND 2005 PRESIDENT OF THE 
                 SOCIETY OF AMERICAN FORESTERS

    Mr. Helms.  Thank you, Chairman Markey; and I thank Ranking 
Member Sensenbrenner and members of the subcommittee for this 
opportunity.
    I would like to summarize my comments in five areas.
    The first one deals with are forests important in this 
issue. I would like to comment that forests store about 50 
percent more carbon than is in the atmosphere; and, secondly, 
U.S. forests sequester about 10 to 20 percent of the total U.S. 
greenhouse gas emissions. So it is important that we have 
policies to stabilize and preferably increase the amount of 
forest land base.
    Secondly, what is the impact of climate change on forests? 
Well, obviously, forests have evolved over the past 30 or 40 
million years and have adapted to change. Relative to the human 
life span, however, it seems that the forests are static, but, 
actually, their distributions are quite transitory. But the 
forests will tend to move up in elevation. They will tend to 
move northward in latitude.
    And there are three issues here that I would like to 
emphasize. One is water. What is the impact of global climate 
on the water that is needed by populations and agriculture when 
most of the precipitation comes on forest watershed in the form 
of smur? Secondly, what is the impact on insects and diseases 
which will lead to mortality in the forests? And then, thirdly, 
the probability that there will be increased wildfire.
    As you know, in 2006, we burned about 10 million acres of 
forest. The suppression costs were at $1.9 billion. And so the 
likelihood is that this situation is going to be increased.
    The amount of carbon or greenhouse gasses that come from 
wildfires is difficult to estimate, perhaps a hundred tons per 
acre. And so it is a significant issue.
    Now what is the role of forests in stabilizing greenhouse 
gasses? Why do we want to spend time on elaborating on 
sequestration and storage? But I would like to comment on the 
importance of recognizing wood as a renewable natural resource 
and to emphasize the importance of getting involved in life-
cycle analysis to look at what is the fate of carbon in wood 
products and as they are recycled and to recognize that not 
only is wood preferable to using alternative materials, such as 
steel and aluminum, in terms of the carbon footprint, but it is 
important to look at wood from the standpoint of bio-fuels, 
wood pellets and with cellulosic ethanol.
    The fourth point I would like to comment on is the question 
is often asked why should we manage forests rather than just 
leaving them to sequester carbon in a natural condition?
    Well, there are two issues here: one, that if you look at 
current modeling, it shows you that a sequence of harvests is 
preferable and will store more carbon for two reasons. One is 
that young forests have a far higher efficiency and rate of net 
CO drop rates than older forests, and the second issue is you 
must take into account what happens to the carbon that is in 
the harvests which goes into products which are fundamentally 
important to the standard of living of the country.
    So if you include the carbon stored in products, plus the 
carbon that--or the energy offsets that would have to be 
accounted for in the use of alternative products, it becomes 
clear that, in the long run, it is better to manage these 
forests.
    In considering the role of forests, what should be the 
efforts that we should be considering?
    First, we enhance the observation and monitoring, 
developing incentives for landowners to sequester carbon, and 
to get knowledge on what is the impact of emphasizing carbon on 
forests relative to the outputs of other products such as wood 
and water wildlife diversity. My expectation is that if you try 
and rise the output of any one thing like carbon, it will 
probably be at the expense of some of these important goods and 
services.
    So, in conclusion, I would like to comment that history 
tells us that the health and welfare of nations is very closely 
associated with the health and welfare of its forests; and, 
therefore, it is important that we develop sound, prudent 
policies regarding how our forests are maintained in a healthy, 
sustainable condition. And I would trust that this issue would 
be so over-arching that it would bring together society, 
industry and conservation groups in order to move ahead on this 
issue.
    Thank you very much.
    The Chairman.  Thank you, Dr. Helms, very much.
    [The statement of Mr. Helms follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  Our final witness is Dr. James Hansen, who 
is the Director of NASA's Goddard Institute for Space Studies. 
He has been conducting groundbreaking climate research for over 
two decades. He has published numerous peer-reviewed 
publications. He is a Fellow of the American Geophysical 
Society and was named one of the 100 Most Influential People by 
Time Magazine in 2006. He is appearing today in his personal 
capacity and not as a NASA official.
    Dr. Hansen, welcome. Whenever you feel comfortable, please 
begin.

                  STATEMENT OF JAMES E. HANSEN

    Mr. Hansen.  Thank you, Chairman Markey, for inviting me to 
discuss dangerous human-made climate change.
    In just the past year or two, scientific information has 
crystallized showing that we are closer to dangerous climate 
change than has been realized. The basis for my conclusions is 
provided primarily by four scientific papers listed in my 
written testimony as publications A, B, C, and D. These are 
peer-reviewed papers in the press in leading scientific 
journals.
    Mr. Chairman, greenhouse gasses humans have added to the 
atmosphere have brought the climate close to critical tipping 
points with the potential for irreversible deleterious effects. 
This conclusion is revealed by improving data on how the earth 
would have responded to changes of atmospheric composition 
during its long history and by changes in the climate system we 
see in satellite and field observations.
    There is new information about positive feedbacks which 
amplify climate change. Forest cover is expanding poleward as 
climate warms. Forests are dark and increase absorption of 
sunlight. Summer melt on ice sheets is starting earlier, 
lasting longer and moving higher up the ice sheets, making the 
ice sheets darker, absorbing more sunlight and melting more 
ice. Methane, a strong greenhouse gas, is beginning to bubble 
from melting tundra. The upshot is that very little additional 
forcing is needed to cause dangerous effects.
    You asked me for advice on metrics, what constitutes 
dangerous. I suggest criteria based on critical tipping points 
that we must avoid.
    Specifically, number one, the stability of the west 
Antarctic ice sheet, which is being attacked from below by a 
warming ocean and from above by summer surface melt. If it 
disintegrates, west Antarctic air can raise sea levels several 
meters, causing a world-wide retreat of shorelines and 
affecting hundreds of millions of people.
    Number two is extermination of animal and plant species. 
Because, as with ice sheet disintegration, extinction is 
irreversible. Large climate change, because of species 
interdependencies, can cause the extinction of a large fraction 
of animal and plant species.
    And, number three, regional climate change. If we stay on 
business as usual, we will cause intensification of subtropical 
conditions, exacerbating water shortages in the American West 
and other parts of the world and rendering the semi-arid States 
from west and central Texas through Oklahoma, Kansas, Nebraska, 
and the Dakotas increasingly drought prone and unsuitable for 
agriculture.
    These criteria and the earth's history imply a limit on 
additional global warming of no more than 1 degree Celsius at 
most. The sharpest limitation comes from west Antarctica and 
sea level. The staggering conclusion is that the dangerous 
level of atmospheric CO<INF>2</INF> is no more than about 450 
parts per million, and it probably is less. Humans have already 
caused CO<INF>2</INF> to increase from the preindustrial 280 
parts per million to 383. It is continuing to increase by two 
PPM per year. If we continue business as usual for even another 
decade without taking decisive steps to move on to a different 
path, it will be impractical to avoid disastrous climate 
effects.
    However, there is a bright side to the difficult imperative 
that we must stabilize atmospheric CO<INF>2</INF> at 450 PPM or 
less. It means that we must move on to the next phase of the 
industrial revolution, and the steps that I will outline serve 
not only to help stabilize global shorelines but also avoid 
problems that many people were beginning to consider 
inevitable.
    We can still avoid loss of all Arctic ice. We can prevent 
the West from becoming intolerably hot and dry, and we can 
prevent acidification of the ocean. We can avoid exterminating 
the plants and animals of the world.
    Science provides a clear outline for what must be done. A 
four point strategy: First, we must phase out use of coal 
except where the CO<INF>2</INF> is captured and sequestered. 
The reason is simple. We cannot prevent use of readily 
available oil in mobile sources where the CO<INF>2</INF> cannot 
be captured. That oil will take us close to the dangerous 
level. A substantial fraction of the CO<INF>2</INF> from old-
technology coal-fired power plants will remain in the air for 
an eternity, for more than 500 years. If we do not capture and 
sequester it, we will guarantee creation of a different planet.
    Second, there must be a rising price on carbon emissions, 
as well as effective energy efficiency standards and removal of 
barriers to efficiency. These actions are needed to spur 
innovation in energy efficiency and renewable energies and thus 
to stretch oil and gas supplies to cover the need for mobile 
fluid fuels, during the transition to the next phase of the 
industrial revolution beyond the petroleum, thus avoiding use 
of the hulking unconventional fossil fuels such as tar shield, 
which could destroy the planet.
    Third, there should be focused efforts to reduce the non-
CO<INF>2</INF> human-made climate force change, especially 
methane, ozone and black carbon.
    Fourth, steps probably will be needed to be taken to draw 
down atmospheric CO<INF>2</INF> via improved farming and 
forestry practices. We also should consider burning biofuels in 
power plants with CO<INF>2</INF> sequestration, thus drawing 
down atmospheric CO<INF>2</INF>. And as a native Iowan, I like 
the idea of the Midwest coming to the rescue of our coastal 
States.
    By means of these steps, we not only avoid the climate 
tipping points, we will also have a cleaner, healthier 
atmosphere.
    The actions serve our interest in many ways. They 
contribute to our energy independence and national security. We 
will benefit economically from extensive technology development 
with many good high-tech, high-paid jobs.
    Of course, moving to the next phase of the industrial 
revolution surely will require changes, sacrifices and hard 
work, but these provide no basis for inaction.
    Thank you.
    The Chairman.  Thank you, Dr. Hansen.
    [The statement of Dr. Hansen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman.  We thank all of the panelists for their 
testimony.
    I will now turn to recognize members of the committee for 
questions for the panel, and the Chair will recognize himself 
now for 5 minutes.
    Dr. Hansen, you identified the melting of the west 
Antarctica ice sheet as the greatest threat from global warming 
and suggest that we could see many feet of level in the rise of 
the level of water in this century. The IPCC's report released 
in February predicts less sea level rise than you suggest. Can 
you explain the discrepancy between your conclusion and the 
IPCC?
    Mr. Hansen.  Yes. IPCC declined to put a number on the 
disintegration of the west Antarctic or Greenland ice sheets. 
The number that they gave represents only thermal expansion of 
the ocean and the effect of mountain glaciers. So those are 
relatively small effects.
    By far, the largest issue is the stability of the west 
Antarctic ice sheet and the Greenland, but especially west 
Antarctica, because it is an ice sheet that is sitting below 
sea level. Its base is below sea level. So it is being attacked 
by both a warming ocean and by a warming atmosphere. And we 
know that it, in just the last few years, has been losing ice 
at a rate of about 150 cubic kilometers per year. So it is 
already beginning to respond to the warming.
    The Chairman.  Let me ask the other witnesses if they could 
quickly respond to how close they each believe we are to 
dangerous interference with climate systems as a result of 
human activities.
    Dr. Curry.
    Ms. Curry.  Well, I would agree with Dr. Hansen that the 
most likely catastrophic thing that could happen in the next 
century would be the collapse of the west Antarctica ice sheet. 
I mean, that is sort of beyond dangerous. I would call that 
catastrophic. I would say that is the single most catastrophic 
thing that we might see in the next century.
    Ms. Parmesan.  From a biodiversity standpoint and also how 
that impacts human health, I would say that if we get up to 
between 1 and 2 degrees, we will lose species but that most 
people think that is manageable. So species will go extinct, 
but can we manage reserves? Can we tolerate the amount of 
increase in disease that that is going to have? Probably we 
can. But everyone that I have talked to in publications is in 
agreement that if you go to up to 4 degrees centigrade, that is 
catastrophic.
    Ms. Ebi.  It is a very good and very difficult question. As 
I said, human health is already being affected; and danger is a 
social choice. As a scientist, I can tell you we don't have the 
studies that will tell you what might happen with human health 
with a 2-degree, 3-degree or 4-degree increase. We know what is 
already going on will become worse. We know the diseases will 
change their range. We know the heat waves will be a bigger 
problem.
    At some point we have to decide when enough people are 
suffering and dying and we need to start making changes. The 
changes have to be both adaptation and mitigation. We have to 
start helping today, and we have to help future generations.
    The Chairman.  Dr. Helms.
    Mr. Helms.  I have two responses: One, at a global level, 
looking at the effect of warming climate on global forests, 
tremendous danger relative to those northern boreal forests in 
particular.
    The Chairman.  How close are we to the danger?
    Mr. Helms.  I would hesitate to put an actual number on 
that, but currently the reports are that the permafrost is 
melting.
    The second response would be relative to the U.S., and I 
would point to the likely increase in wildfire, particularly in 
the western forests. If this becomes more prevalent, it is 
going to be a very dangerous situation.
    The Chairman.  Okay. Thank you.
    Let me ask--Dr. Hansen, let me ask you one final question. 
Has the United States, in your opinion, lived up to its 
commitment thus far under the United Nation's Framework 
Convention on Climate Change to prevent dangerous climate 
change?
    Mr. Hansen.  Well, I think that we have not done what we 
need to do. Because the United States has contributed more than 
three times the carbon dioxide--the increase in carbon dioxide 
that is in the atmosphere. And it is said that China is now 
about to pass us in current emissions. But what counts is the 
integrated emissions, the cumulative emissions, because a large 
fraction of the CO<INF>2</INF> stays in the air forever, more 
than 500 years. So we should be--given our moral responsibility 
for what we have put up there, we should be taking a leadership 
role in addressing the problem, and we are not doing that.
    The Chairman.  Thank you, Dr. Hansen.
    My time has expired.
    The Chair recognizes the gentleman from Wisconsin.
    Mr. Sensenbrenner.  Thank you.
    Dr. Hansen, are greenhouse gasses pollutants?
    Mr. Hansen.  I don't understand that word.
    Mr. Sensenbrenner.  Do they pollute the atmosphere?
    Mr. Hansen.  Absolutely. In my opinion, given the impacts 
that they will have and on the climate----
    Mr. Sensenbrenner.  How can you say they are pollutants 
when they occur naturally? The largest progenitor of 
CO<INF>2</INF> are the oceans.
    Mr. Hansen.  That is true for many things which are 
nutritious are pollutants or poisonous if you have them in 
excessive amounts. And I can tell you what the excessive 
amounts of CO<INF>2</INF> will do. In fact, I have already 
described some of the potential factors and----
    Mr. Sensenbrenner.  I have read your full testimony here, 
and you talk a lot about CO<INF>2</INF>. Which causes more 
damage to the climate, CO<INF>2</INF> or methane?
    Mr. Hansen.  Per molecule, methane has a stronger 
greenhouse effect, but because of the overwhelming number of 
CO<INF>2</INF> molecules, it is causing a larger effect.
    The other thing is that CO<INF>2</INF> has a much longer 
lifetime. As I have said, more than a quarter of it stays there 
more than 500 years. But methane has a lifetime of 10 years.
    Mr. Sensenbrenner.  Why don't we talk more about the 
sequestration of methane or the reduction of methane?
    Mr. Hansen.  We should.
    Mr. Sensenbrenner.  Because molecule per molecule, methane 
is much more dangerous than CO<INF>2</INF>.
    Mr. Hansen.  It is an opportunity to reduce the overall 
problem, and that is one of the four points that I mentioned, 
and that is one of the things which the United States should be 
given credit for. We have taken steps--our present government 
has taken steps to reduce methane emissions, and that is 
helpful, but it is not enough.
    Mr. Sensenbrenner.  Well, do you know what I can say is 
that almost all the debate on this subject has been relative to 
CO<INF>2</INF>. And in the Kyoto Protocol, you and I have 
talked about that at some length in the past, there are six 
greenhouse gases that are under the Kyoto Protocol, but 
CO<INF>2</INF> ends up being the biggest culprit. How do we 
change the debate on this so that we deal with the other five 
greenhouse gases, particularly methane.
    Mr. Hansen.  Well, we need to talk about that. We need to 
put more emphasis on that. But the critical thing, because of 
its long lifetime, is indeed carbon dioxide. And that is where 
we have got to bring the sources of that under control within 
the next several years, or we are in big trouble.
    Mr. Sensenbrenner.  In your written testimony you talked 
about a carbon tax. In your oral testimony you didn't really 
emphasize the T word. How high a tax would be necessary to 
achieve the reductions that you think are necessary?
    Mr. Hansen.  That is a difficult thing to say. What I have 
said about that is we should have a nonpolitical czar the way 
we do in economics. You don't want to damage the economy, you 
want to push this up, and you don't want it to be political. 
You want to push it up fast enough that you influence the 
development of technology, but you have to give the consumer 
options so that he can purchase things that reduce his 
requirements for fuel.
    Mr. Sensenbrenner.  There is a small problem in that called 
the United States Constitution, which gives the House of 
Representatives the exclusive authority to initiate tax 
legislation. As I said in my opening statement, when scientists 
weighed into policy discussions, as you have done very 
eloquently, you are advising us what we ought to do. You are 
advocating a carbon tax. How high does it need to be to reduce 
the amount of CO<INF>2</INF> you want to see us reduce?
    Mr. Hansen.  It has to be high enough to drive the 
innovations in the technology and to drive energy efficiency. 
It has got to be high enough that people feel that they will be 
better off if they use energy more efficiently.
    Mr. Sensenbrenner.  How much per ton of carbon or how much 
per pound of carbon?
    Mr. Hansen.  That would be a function of time. Actually it 
can start out relatively small, because you notice people do 
complain about increases in prices of energy, so they will 
notice. But you have got to do it in a way that allows the 
introduction of technologies.
    Mr. Sensenbrenner.  I guess I would say that if you 
increase the gas tax or increase taxes on other types of energy 
like natural gas, every economist says it is a progressive 
taxation, and I don't think that is very popular.
    My time is up. Thank you.
    Mr. Hansen.  There are things that you can do to relieve 
the burden on the people who are affected the most.
    The Chairman.  The gentleman's time is expired.
    The Chair recognizes the gentlelady from North Dakota Ms. 
Herseth. 
    Ms. Herseth Sandlin.  Thank you, Mr. Chairman. I want to 
thank our witnesses for their testimony today.
    I represent the entire seat of South Dakota, and 
agriculture is our largest industry, and we have been plagued 
by a multiyear drought. And so I am very interested in the 
testimony that a number of you offered as it relates to 
rainfall location changes, where that has happened 
predominantly in each continent and the impact on agriculture.
    Just by way of some description of what is happening in 
South Dakota, last summer, midsummer, central South Dakota 
reached record high temperatures, as high as 117 degrees in a 
community right along the Missouri River. The reservoirs along 
the Missouri River in the Upper Basin States are experiencing 
record low levels of water in those reservoirs linked directly 
to what has been happening with snowmelt and snow levels in the 
mountains in Montana. As I mentioned, we are experiencing this 
drought and the impact that it is having predominantly on 
agriculture as it relates to livestock producers, but also some 
of our grain producers, and how the drought is affecting forest 
health in the Black Hills National Forest in western South 
Dakota. So I offer that by way of description, not to be 
parochial, but to provide the context of my question.
    If you could address the issues of rainfall changes, 
perhaps Dr. Parmesan and perhaps Dr. Helms. If you could answer 
the question of we know when forests are overstocked, they 
present a risk of forest fire. But the impact that they have on 
the water resources and the watershed is also significant. I 
was wondering, as you described, the carbon storage potential 
of our forest, does overstocking of the forest also affect the 
potential for carbon storage? And if you could describe that.
    And then just to clarify my question to you, Dr. Parmesan, 
if you could say where in North America you have seen the most 
significant rainfall location changes and how that affects 
drought, and perhaps where you have seen that in other 
continents, and if it is different from previous cycles of 
drought that we have always experienced in some arid States.
    Ms. Parmesan.  I am not a climate scientist, I am a 
biologist, but I can talk about the impacts of changes in 
rainfall that we have seen. And certainly large areas of the 
Southwestern U.S.A. have become much drier, and we are seeing 
species going extinct and changes in vegetation structure. 
Other areas have become wetter, and again we are seeing changes 
in vegetation structure and species distributions within the 
U.S.A. that go along with that.
    Now, when I have looked at the projections for the U.S.A., 
one thing that has concerned me is I am actually a farmer also. 
I have got farms in the Corn Belt in Illinois, and they rely on 
normal rain, natural rainfall, without irrigation. And it has 
become more and more difficult to actually grow crops there 
with natural rainfall they have had, not quite as strong a 
drying trend as you have had, but a slight drying trend. And 
fairly quickly, I think 11 of the 12 models believe that 
section of the country will continue to become drier. So it is 
a concern to me actually personally that agriculture areas in 
that section will not be able to sustain crops anymore.
    Ms. Herseth Sandlin.  Let me just ask a quick follow-up, if 
you don't mind, Dr. Helms. When you say ``can't sustain those 
crops,'' we know American agriculture and agriculture around 
the world is not a stagnant industry. We have seen technology 
going into drought-resistant crops, et cetera. But your 
projections, when you say 11 of the 12 models, is that based on 
just the current types of crops in sea technology that they are 
using, or do you think it is actually going to reach levels 
that won't sustain row crops or other types of grain 
production?
    Ms. Parmesan.  Again, this is not quite my area of 
expertise. But the agriculture models that do this both 
globally and within the U.S.A. and within Europe project that 
with a little more warming, you are going to have increased 
production in more northern latitudes, meaning Canada, Sweden 
and Finland, not in the lower latitudes, the U.S.A. and the 
lower part of Europe, and that when you get up to 4 degrees 
warming, production goes down globally.
    Mr. Helms.  The importance of forest, forested watersheds, 
is the forests enable the water to get down into the soil, 
which is where you want it to be, because a watershed, the 
water that is stored in the soil, is the critically important 
thing both from the storage capacity and also in terms of slow 
release into the streams. If the forest becomes overly dense 
and overly stressed, and you have mortality in the forest, then 
the forest is not able to serve that function. And particularly 
if it induces fire, you are likely to have more surface flow. 
And so if you have surface flow, you have not high-quality 
water, and you have very rapid water getting into the 
watersheds.
    So as we look at global climate change, we get concerned 
about trying to do whatever we can to maintain forest health. 
And then we have to distinguish between whether the 
precipitation is in the form of rain or in the form of snow. 
And then the actual management of that watershed would differ a 
little, because, again, the idea would be to get the moisture 
into the soil and, in the case of snow, delayed snowmelt.
    Ms. Herseth Sandlin.  And so in the case of overstocking 
that leads to tree mortality, for example, knowing that 
overstocking exacerbates the problem of beetle infestations, 
that does affect the carbon storage potential of that forest?
    Mr. Helms.  Yes. And also the water. Obviously if you are 
going to grow trees, they will consume water. But the 
important--and the most important issue on watershed is to 
maintain that forest in a healthy condition and not allow it to 
get overstocked, because as we have seen in a lot of forests in 
the Southwest, it tends to enhance the probability of insect 
disease populations that leads to mortality that leads to 
increased fire risk.
    Ms. Herseth Sandlin.  Thank you, Dr. Helms.
    One final comment before my time is up. I do want to agree 
with you, Dr. Hansen, that I do think there is great potential 
for the Great Plains in the Midwest to assist our Coastal 
States as it relates to the impacts of global warming and 
climate change. And I think the questions I am posing to 
agriculture not only address the issue of the grains that are 
grown or the livestock that are raised for food and for the 
nutrition of our populations, but increasingly the potential to 
meet our energy needs through the form of cellulosic ethanol, 
other renewable sources.
    So I thank you, Mr. Chairman.
    The Chairman.  The gentlelady's time is expired.
    The Chair recognizes the gentleman from Arizona for 7 
minutes.
    Mr. Shadegg.  Thank you, Mr. Chairman. And I want to thank 
all of our witnesses. I appreciate your testimony. I think it 
has been a great contribution to this discussion.
    Dr. Hansen, I was very encouraged, both by your written 
testimony and by your oral testimony, in the kind of optimism 
that you bring to the topic; that is, the things you say that 
we can do that are positive. It is kind of nice to hear it is 
not too late, recognizing that you call for some pretty strong 
medicine, but I appreciate that optimism.
    I have lots of questions. I want to start by saying in your 
testimony you make the point that we could see dramatically 
greater sea level rise than the IPCC. The IPCC said 23 inches. 
You said it could be much more, and you explained that in 
response to the Chairman's question. That is driven largely by 
the issue of the demise of the West Atlantic Ice Sheet; is that 
correct?
    Mr. Hansen.  Yes.
    Mr. Shadegg.  I want to commend you for disagreeing. I am a 
little troubled by scientific consensus, and I am glad that 
some scientists can say, no, I disagree with other scientists, 
even with a consensus scientist, and say, no, I just happen to 
have a different opinion, because IPCC says 23 inches, you say 
it could be worse. I am glad somebody out there is willing to 
disagree even when everybody is on one side.
    Mr. Hansen.  Well, you know, I perhaps should point out 
that, in fact, if you ask the several top glaciologists, they 
agree that IPCC has not addressed the real issue, and they are 
all very worried about the stability of these ice sheets.
    Mr. Shadegg.  I appreciate that very much. And I am--just 
because there is a consensus doesn't mean a group of you can't 
say, do you know what, I just think different. As a matter of 
fact, years ago there was an advertising bulletin put out I 
think by United Technologies that I used to have on the wall in 
my office that said, if 10,000 people believe in a dumb idea, 
it is still a dumb idea. And we can be wrong about things.
    You all have different views, and at some point in your 
paper you say, look, science can't predict these things with 
absolute certainty. And I notice everybody--at least several 
others agreed with you, that the most catastrophic thing that 
could happen would be the demise of the West Atlantic Ice 
Sheet. Obviously, you don't believe the likelihood of that is 
at zero, and you don't think the likelihood of that is at 100. 
Are you willing to try to put a number on it, or is that 
something you are not comfortable doing?
    Mr. Hansen.  No, I am willing to talk about that, but it 
depends which scenario we follow. And our best guide for that 
is the Earth's history. We know that when the Earth was 2 to 3 
degrees warmer, sea level was a lot higher, and the West 
Antarctica Ice Sheet was not there. So if we follow business as 
usual, then it is a lead pipe cinch, in my opinion, that West 
Antarctica will go. The only issue is how long does it take for 
it to happen.
    Again, the Earth's history is our best guide, and it shows 
there is not much lag. The lag is of the order of centuries at 
most. And given that the sea level rise associated with 2 to 3 
degrees warming was 30 meters----
    Mr. Shadegg.  I want to follow not following business as 
usual, because you make a number of recommendations on that; 
stop using coal without sequestration. I have some trouble with 
the idea of long-term sequestration. Perhaps that is the right 
way to go. I would rather figure out a use for that 
CO<INF>2</INF> than lock it away, but maybe we can figure that 
out.
    I am encouraged by your belief that we can, in fact, reduce 
the current level of CO<INF>2</INF> by farming and on 
forestation. I take it then that you agree largely with many of 
the comments of Dr. Helms with regard to the importance of 
managing our forest and doing other things?
    Mr. Hansen.  Yes, that is right, managing the forest and 
also the agricultural practices, because the soil can store a 
lot of carbon.
    Mr. Shadegg.  And, for example, I have a number of 
constituents in Arizona who are working aggressively, for 
example, to build biofuel plants that would produce electricity 
for biofuels, another way we can help in this process, correct?
    Mr. Hansen. It depends on how we do it. We have to do it in 
an effective way. Some of the plans for corn-based ethanol 
would put quite a bit of CO<INF>2</INF> in the atmosphere.
    Mr. Shadegg. I am not a big fan of corn-based ethanol. What 
they are talking about in Arizona is actually related to Dr. 
Helms' testimony.
    Mr. Hansen. Those programs are okay to give us a start, but 
we shouldn't have a huge program at the beginning because there 
are many disadvantages of that in terms of increasing the cost 
of food worldwide.
    Mr. Shadegg. This is actually forest biomass. We have lots 
of forests in Arizona.
    Mr. Hansen. That is a very good thing to do.
    Mr. Shadegg. And Dr. Helms probably knows the work of Dr. 
Wally Covington, who has talked about the overgrowth of our 
forests. They become too dense. It was talked about in Ms. 
Herseth's questioning. They are talking about moving that 
overgrowth to allow the forest to be more productive and then 
burning that biomass, another positive thing we can do for both 
greenhouse gas emissions and also to produce a new source of 
fuel as long as we sequester any CO<INF>2</INF> that is 
produced in that process.
    Methane, the Ranking Member talked a little bit about 
methane and the fact that it is by multiples worse than carbon 
dioxide. You mentioned methane in your testimony, I have read, 
21 times to 23 times. I heard you say that carbon is a more 
serious problem because it lasts longer, but I did not hear in 
your testimony suggestions for how we deal with methane. I 
think about that occasionally, okay, what do we do with animal-
caused methane. But then the other big question is the one 
alluded to in your testimony, which is increasing amounts of 
methane escaping from the tundra. And I just wanted to ask if 
you have suggestions for what we can do about methane.
    Mr. Hansen. There are a number of things that can be done: 
capturing methane at coal mines, for example, and at landfills 
and reducing leakage in the whole fossil fuel process. We have 
actually made some progress in that. That is why the growth 
rate of methane has slowed down a bit.
    Mr. Shadegg. I would like to see us pursue that, but I am 
running out of time.
    Dr. Curry, I want to ask you one question. In your 
testimony at page 1, if you would look at it, your written 
testimony, you quote a long paragraph from IPCC number 4, or 
IPCC 4th. And about halfway down that paragraph, there is an 
ellipsis and an omitted sentence. Do you know what that omitted 
sentence says?
    Ms. Curry. It wasn't the omitted sentence. That text 
appeared in two different subsections of the report. There was 
one on detection of climate change, which is the part before 
the ellipsis appeared, and then maybe four or five subsections 
later there was one about projections of future climate change 
and impact. So those two little paragraphs appeared in two 
different subsections of the report. That is the entire mention 
of hurricanes in the IPCC summary for policymakers.
    Mr. Shadegg. If you look at page 8 of 18 of the testimony, 
there is, in fact, an omitted sentence.
    Ms. Curry. There is an omitted sentence?
    Mr. Shadegg. There is an omitted sentence.
    Ms. Curry. Oh, okay. My apologies.
    Mr. Shadegg. At the end of the first paragraph. And that 
omitted sentence says: There is no clear trend in the annual 
numbers of tropical cyclones.
    It might be better if that sentence appeared.
    Ms. Curry. My apologies.
    The Chairman. The gentleman's time has expired. We can 
clarify that.
    The gentleman from New York Mr. Hall is recognized for 7 
minutes.
    Mr. Hall. Thank you, Mr. Chairman. And thank you, too, 
everybody on our panel, for your enlightening testimony.
    Just a couple quick comments. One is that the price of fuel 
is going to rise no matter what we do. Those of us who talk 
about peak oil, for instance, know by the laws of supply and 
demand, whether it is oil companies charging more and making 
more profit even as they are making record profits already, or 
whether it is the countries that control the oil charging more 
by cartel manipulation and raising prices that way, we are 
going to hit higher gas prices whether we tax it or not. In 
fact, I have been reading that some expect gasoline prices this 
summer to go over $4. I don't know whether that will happen or 
not. I suppose as a consumer I hope it doesn't.
    I personally bought an American-made hybrid. I decided to 
vote with my dollars to try to boost the American automobile 
industry in the right direction. And we are talking about this 
since jobs have been mentioned. I am as concerned as anybody 
about jobs. There are two things. One is these new technologies 
will create jobs. In fact, unfortunately, they are creating 
more of them--unfortunately for us, I think, in the United 
States, they are creating more of them in Japan right now as 
evidenced by Toyota just passing GM as the number one volume 
auto maker. But I had to sacrifice approximately 20 miles per 
gallon to buy an American hybrid, because the American 
companies didn't, they wouldn't, they made a decision at the 
corporate level not to build fuel-efficient cars 20 years ago 
when the research and development was going on in other 
countries.
    So some of these things can be absolutely job-creating if 
we do the right thing. In fact, the Clean Water Act, the Clean 
Air Act, other pollution control, scrubbers that we required, 
industry always screams or in the past has screamed that it is 
going to cost jobs, and, in fact, it usually winds up creating 
jobs to solve these problems and give us cleaner and cleaner 
water. So I for one believe addressing climate change will do 
the same thing.
    I wanted to ask, using the median projection of sea level 
rise, would it be correct--Dr. Hansen, I will start with you--
to say that such places as Hilton Head, Ocracoke, Hatteras, 
South Padre Island, Nantucket, Manhattan, many of the landmark 
resorts and famous golf courses and vacation spots that we have 
become quite fond of will be at risk?
    Mr. Hansen. The entire eastern United States seaboard is at 
risk; in Florida almost the entire State. So we have a lot at 
risk, but so do China, Bangladesh, India and many other places. 
It is something that we should be able to cooperate with the 
rest of the world on.
    Mr. Hall. I hope in terms of the adaptation versus 
mitigation that we lean sooner on the mitigation and don't have 
to adapt as much later.
    Mr. Hansen. Mitigation is absolutely essential. We could 
not--it is not practical to adapt to our rapidly rising sea 
level. New Orleans is a village in comparison to the cities 
around the coastlines all around the world. The disasters would 
be far greater than we saw in New Orleans. So we just can't 
adapt to that. We have got to mitigate.
    Mr. Hall. Thank you.
    Dr. Ebi, perhaps this would be good for you. A number of 
you have testified about dramatic climate change and increase 
in droughts and heat waves. Are we looking at possibly the 
creation of a migratory America as people from coastal 
population centers or elsewhere are forced to move or migrate 
to more tolerable locations, or are we looking at migrations 
from the countries who are south even more than is already 
happening into the United States looking for a more temperate 
climate?
    Ms. Ebi. I don't think that is an ``or,'' it is an ``and''; 
that as we see changes, and we are seeing changes already in 
temperature and precipitation, we heard about the drought in 
South Dakota, people do make choices about where to live. And 
they will make choices based on a range of things, one of which 
is the current weather and climate. We also have a large number 
of migratory workers that come from Mexico and further south 
into the U.S. to pick our crops.
    These are complex systematic changes. It is likely that as 
we see drought in some regions of the world--and to be honest, 
most of us are much more worried about places like Africa and 
Southeast Asia, where you have very high populations at risk. 
Dr. Hansen mentioned Bangladesh. About a third of Bangladesh is 
at risk for sea level rise. Bangladesh is the most populated 
country in the world. We are looking at sub-Sahara Africa where 
another degree or two in temperature and you may have very 
severe problems with rain throughout agriculture. Those people 
have to go somewhere. Yes, we will see migrations.
    Mr. Hall. Our last panel was about national security 
implications of climate change, and they talked a lot about the 
instability of countries, especially in the developing world, 
relative to this. But we are living in the experiment, as I 
understand it. If you do the scientific method, you ordinarily 
will have one group of mice or frogs or whatever it is that you 
are testing, and then you will have a controlled group that you 
don't do the experiment on, and then you have a separate 
population that you do do the experiment on, and then you can 
tell the difference between the controlled group.
    We don't have a control planet; we don't have another Earth 
that this change is not happening to that we can compare it to. 
So given the fact that we have not much to gain in terms of our 
balance of trade deficit being improved if we change our energy 
mix and develop more renewables here at home, and that we can 
perhaps lessen asthma, emphysema in the inner city, and we can 
have fewer oil spills and less mercury pollution and less acid 
rain, and many fewer wars in the other parts of the world where 
they happen to have oil, it seems that even if climate change 
turns out to be a fiction, nonetheless we help ourselves by 
starting to deal with it. And my time is yielded.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I appreciate it. And I 
appreciate the testimony of our witnesses. Obviously we are 
going to get called for some votes here, so I will try and make 
my questions quick, and I hope you will give us the full 
answers.
    Dr. Helms, Dr. Hansen mentioned just briefly in part of his 
testimony the notion the forests are moving to the north, and 
you are seeing more and more dark cover over the Earth as a 
result of that. Are you seeing that kind of migration, if you 
will?
    Mr. Helms. I haven't personal experience. I have seen 
references to it in literature.
    Mr. Walden. I have, too. I read a report recently about 
some people say, well, if that is the case, then those forests 
become more heat sinks because they are darker, which could 
actually elevate the temperature. And then the same author went 
on to say, don't for a minute think you want to have more snow 
on the ground thereby clear-cutting those forests. That 
wouldn't be good behavior either.
    Mr. Helms. It is my understanding the study you are 
referring to was dealing with issues that albedo is high. 
Obviously if you replace that with a darker forest, that will 
absorb more heat. But I think the issue that we are more 
interested in is the more temperate area from the tropics up to 
the boreal where one gets concerned about making sure that the 
forests are stable and increasing because they are indeed 
storing carbon.
    Mr. Walden. As you know, I chaired the Forests and Forest 
Health Subcommittee on the Resources Committee until this 
Congress, and we worked very hard to try to change America's 
forest policy to get at some of the things that you have 
testified today about. First, are forests a carbon sink if 
managed properly?
    Mr. Helms. Of course.
    Mr. Walden. And managed properly means trying to keep them 
in balance with what would have naturally occurred pre-fire 
suppression time?
    Mr. Helms. That is right.
    Mr. Walden. And that deals then with stand density, 
correct?
    Mr. Helms. Yes.
    Mr. Walden. As the temperature rises on the planet, won't 
there be more pressure on these forests? If they are not 
managed at the right density levels, they will be more 
stressed, therefore more susceptible to insect infestation?
    Mr. Helms. I think you are quite correct in that statement.
    Mr. Walden. At the end of the day, that then leads to 
higher incidence of fire, correct?
    Mr. Helms. Correct.
    Mr. Walden. And if that happens, then--talk to me again 
about the release of carbon into the atmosphere, as well as 
other greenhouse gases. Aren't there other pollutants that are 
released into the atmosphere as a result of these catastrophic 
fires we are seeing?
    Mr. Helms. There are a variety of greenhouse gases, in 
aerosols in particular, that are important. Carbon is just one 
of these. But when we are dealing with forest, the fundamental 
basic tenet of forest management is to ensure the maintenance 
of forest health. The way that is done is to be concerned about 
stand density. Now, nature takes care of this over time through 
mortality. The problem for human society is that we can't 
tolerate commonly the consequences of mortality because of the 
infrastructure and the fact that we have urban development in 
forests.
    Mr. Walden. To get back to one of your points, doesn't it 
also affect wildlife habitat and water and watersheds? If you 
wipe out a forest through catastrophic fire that can otherwise 
have been better managed to be more in balance, you lose it.
    Mr. Helms. You lose the whole suite of ecosystem services 
that the forests provide. Now, these will come back in time as 
they have historically.
    Mr. Walden. But the issue here is one of time, as we hear 
today from every panel that is here. We may not have as much 
time as we thought we had to address this issue, correct? 
Aren't you all telling us this could happen exponentially, and 
it could be rapid, in a matter of decades as opposed to 
centuries? So does it make sense then to ignore forest policy 
as a small but important part of this equation dealing with 
carbon?
    Mr. Helms. Well, forests----
    Mr. Walden. Can I get an answer from each of you? Do you 
agree with what Dr. Helms is suggesting? And I won't have much 
time here, so you can give me a yes or no, and I hate to do 
that to you.
    Dr. Hansen.
    Mr. Hansen. I agree it is an urgent issue, yes.
    Mr. Walden. But the forests need to be managed.
    Mr. Hansen. And the forests are a significant part of the 
solution.
    Mr. Walden. Dr. Curry.
    Ms. Curry. Yes.
    Mr. Walden. Dr. Parmesan.
    Ms. Parmesan. Yes. And I would like to add that he is 
absolutely right. When you properly manage a forest, the fires 
are small, they are much less hot. It is when you don't manage 
it they get really dense, and you get these huge catastrophic 
fires.
    Mr. Walden. Thank you.
    Dr. Ebi.
    Ms. Ebi. Yes.
    Mr. Walden. Thank you.
    Now, the other issue is the replacement potential for using 
wood or woody biomass for products. The dais we are on here is 
made of wood. This is a natural carbon sink.
    Mr. Helms. Correct.
    Mr. Walden. So that versus the concrete. And I am not 
against concrete manufacturers or anything like that, but when 
we look at these issues, there are trade-offs here, aren't 
there?
    Mr. Helms. And this is the important part of the discussion 
is to make sure that we have a balanced evaluation of 
alternatives.
    Mr. Walden. Then consumers could make choices, couldn't 
they?
    Mr. Helms. Yes. And part of the discussion is to look at 
what is called the life cycle assessment of the alternative 
products that we use in building and construction in daily use. 
And if you look at that, it is very clear that wood has by far 
the lowest carbon footprint of alternative materials.
    Mr. Walden. And so would it be to our benefit and that in 
the environment to try to encourage the use of woody biomass, 
for example, for alternative fuels or production of energy?
    Mr. Helms. That is absolutely correct. And in addition to 
that, while you are doing this, you are improving the health of 
the forest and reducing a fire hazard. So it is a win-win 
situation.
    Mr. Walden. The final point is after a catastrophic fire, 
do you remove more carbon by quickly replanting and getting a 
healthy forest growing sooner, or by letting it sit there and 
let nature regenerate it over a much longer period of time?
    Mr. Helms. If your goal is to sequester carbon, you have 
got to get leaf area growing on that burned area as quickly as 
possible. What I think is important, however, after a forest 
fire, the most important first thing to do is a very quick 
prompt assessment of the issue, because the watershed is not a 
single kind. You don't do things. You probably leave wilderness 
and natural areas alone; otherwise you have to have prompt 
regeneration.
    Mr. Walden. Thank you. Thank you all.
    The Chairman. Let me just tell everyone they have about 
8\1/2\ minutes left to go before this roll call on the House 
floor. My intention is to recognize Mr. McNerney for 7 minutes, 
if he would like at this time, or I can recognize Mr. Larson 
for 5 minutes. It would be up to you, Mr. McNerney. But I will 
announce that my intention is for the Chair to go over and make 
this first vote; then there will be a 10-minute recommittal 
debate, and then obviously a 15-minute vote, which will give us 
about another 20-minute gap. So I intend on returning and 
reconvening the hearing after this first vote.
    So, Mr. McNerney, it will be your choice right now. You 
would have to adjourn the hearing with 1 minute left to go and 
run and make the vote, or I can recognize Mr. Larson at this 
time.
    Mr. McNerney. I will make it 1 minute.
    The Chairman. The gentleman is recognized for 7 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. And I do want to 
thank the board. I know it is a big commitment for you to come 
here and sit in front of this committee. A mounting evidence on 
global warming has caused concern of climate change and become 
a significant part of our national consciousness. In fact, just 
last week I was meeting with religious leaders, national 
religious leaders, who were talking about what they can do to 
save God's creation. So it is very impressive what that has 
done.
    We have an opportunity, I think, to use the national 
consensus to develop a new national purpose, to energize and to 
inspire our population, especially the coming generation, to 
become engaged in education and innovation necessary to end 
global warming, to give our country a national leadership 
position in energy and economic and environmental issues in the 
coming decades. And I think I better leave it with that. Thank 
you again for coming, and we will probably see you in another 
half hour.
    [Recess.]
    The Chairman. We thank you, and we will reconvene the 
hearing. And I need to recognize the Members that have arrived. 
Is there anyone who would want to take on the issue of the 
acidification briefly?
    Dr. Parmesan.
    Ms. Parmesan. In the tropical regions the ocean has become 
more acidic, and this is partly because the ocean has been 
absorbing a huge amount of the carbon dioxide that we have been 
putting out. I think the estimate is 40 or 50 percent. And it 
is starting to become saturated, which means it is starting to 
get more and more acidic, and at some point it is not going to 
be able to absorb the CO<INF>2</INF>.
    So there are two problems. One is we have been sort of not 
recognizing that we are not feeling the full strength of what 
we put out because the ocean has been this wonderful thing, and 
that is gradually going away; and also that as the oceans 
become more acidic, they are starting to get near the tipping 
point for hard-shelled organisms to be able to make their 
shells. And it is a combination of temperature and acidity that 
in the tropical regions some estimates, the sort of business as 
usual estimates, is that by 2050 a lot of organisms such as 
corals and shellfish will not be able to create hard shells.
    The Chairman.  And this additional emission of 
CO<INF>2</INF> is what leads directly to the acidification of 
the ocean?
    Ms. Parmesan.  Yes, absolutely, as far as making Coca-Cola.
    The Chairman.  Meaning?
    Ms. Parmesan.  You add more carbon to the atmosphere, more 
of it gets absorbed by the ocean, and that makes propionic 
acid, so gradually it becomes more amorphic.
    The Chairman.  So it is like making Coca-Cola is not too 
far off the point either?
    Ms. Parmesan.  No, I was serious.
    The Chairman.  It is serious, but it also an easy way to 
understand the point for ordinary people, because everyone 
knows when you are shaking up something with too much carbon in 
it.
    Let me now recognize the gentleman from California Mr. 
McNerney for 6 minutes.
    Mr. McNerney.  Thank you.
    I just finished a diatribe on how global warming can 
energize us and give us a national purpose. Dr. Parmesan, many 
of the changes we are seeing just in biodiversity and species 
reduction, just on a .7-degree change, that is Centigrade, 
right.
    Ms. Parmesan.  Centigrade.
    Mr. McNerney.  Well, it seems that this is a proverbial 
canary in the mine. Do you see that we are approaching a major 
breakdown in international health because of global warming?
    Ms. Parmesan.  On the health issue what really worries me, 
as I said, all the diseases, the parasites that cause humans to 
become sick are generally not monitored in the wild. So we know 
when we go to Mexico, we have a really high risk of getting 
diarrhea. Well, part of the reason is that they have lot more 
parasites there, a lot more harmful bacteria than we get in the 
temperate zone. So as we are seeing birds and butterflies 
moving northward, it is very, very likely that those parasites 
and the vectors of human parasites are also moving northward 
even if we don't have the data, because butterfly collectors 
don't go out and collect worms and protozoa.
    Mr. McNerney.  We hear a lot about biodiversity. We have 
heard about it for 20 years or so now. It seems like as we 
eliminate more species, we are getting closer to a point where 
systems are going to be breaking down. Is that your vision of 
where we are headed with all this?
    Ms. Parmesan.  That is a very active side of research, at 
what point--we know that ecosystems are interrelated sets of 
species. How many species can an ecosystem lose and stop being 
able to function in terms of human services, in terms of 
watershed capability, in terms of filtering the air, et cetera? 
That is a big debate. There isn't a number on that.
    But what I can say is we are actually seeing whole 
ecosystems being destroyed. So coral coral reefs are an 
ecosystem, and we have lost 30 percent in the area globally 
already with .7-degree Centigrade warming. Arctic ecosystems 
are declining in general. I cannot give you like a number, if 
we lose 20 percent of the species, we are going to lose our 
ecosystem services, but what I can tell you is we are literally 
losing whole ecosystems that we do rely on. Coral reefs provide 
tourism. There are fisheries. There is a huge amount of 
economic gain from coral reefs that is being lost.
    Mr. McNerney.  I am going to direct my next question to Dr. 
Ebi. You noted that the U.K. has a global warming agency that 
could be a model for us. How do they deal with business 
integration into the solutions that might be found for this 
problem?
    Ms. Ebi.  The U.K. Climate Impacts Program, U.K. CIP, is 
funded by the U.K. Government, as I noted, for 10 years now, 
and it focuses on adaptation. And it works directly with the 
government; it works with communities, schools, businesses, the 
insurance industry on what kinds of changes they can see at 
their local level. They have got downscaling to a very fine 
scale in the U.K., and then work with the people, the schools, 
the businesses, the regional centers on what that would mean 
then for what kinds of things do they need to adjust to. Do 
they need to change their flood risk policies? Do they need to 
look at their housing infrastructure? How are they going to 
deal with heat waves? How can they start making changes so that 
they can deal with the change in temperature and precipitation 
that already occurred, what is built into the system and what 
is projected, then flows into the mitigation policies to make 
sure that adaptation and mitigation work together so that we 
can make all our communities as resilient as possible?
    Mr. McNerney.  Well, is there like a venture element to 
this or a venture fund element or some way to encourage 
businesses to move in that direction that would mitigate the 
problem or adapt, whichever the case is?
    Ms. Ebi.  I don't specifically know if they got venture 
capital funding. I do know they have been working with business 
and industry. I know that the British insurance industry has 
put out a whole very detailed book on how they are going to be 
adjusted. So they are working to make sure that innovation does 
take place.
    Mr. McNerney.  Thank you.
    Mr. Chairman, I yield back.
    The Chairman.  The gentleman's time has expired. The Chair 
recognizes the gentleman from Washington State Mr. Inslee for 5 
minutes.
    Mr. Inslee.  Thank you.
    I would like to ask you for some professional advice for 
free if I can. One of the mysteries to me is we have this 
enormous consensus in the scientific community about the human 
contribution to climate change; I mean, enormous consensus 
across the international spectrum, multiple fields, multiple 
studies. It really is quite compelling. It is also combined 
with now our visual observation of being able to see these 
things with our naked eye, with melting glaciers and ice caps 
and changes in vegetation and biological patterns, which I 
thought the testimony was interesting on.
    So the question I would like to ask you about is with all 
of that enormous scientific consensus and even visual impacts 
that we can see with our own eyes, we still have people who are 
basically ignoring the signs, blinding themselves to it, still 
saying that scientists don't know what they are talking about, 
or it is the sunspots, or how can humans possibly change the 
climate of the Earth because we are well less than 10 percent 
of the total CO<INF>2</INF> going into the atmosphere, so how 
could we possibly influence the climate? And it is really 
surprising to me because these are people who depend on science 
in their life. They use a microwave oven, they use a cell 
phone, they depend on quantum mechanics, they ride in 
airplanes, they trust science, their lives are dependent on 
science, but when it comes to this issue, they want to ignore 
it.
    And I guess just the question is do any of you have any 
advice on what helps people understand the degree of consensus 
and get over some of these hurdles? Now, my theory has been it 
is fear. People are afraid that we can't deal with it. People 
tend to ignore what they fear. So I am doing some things to try 
to get people to have a little confidence so we can skin this 
cat. But I just ask your advice in that general realm how to 
help people come to terms with this issue.
    Ms. Ebi.  I have two different responses. I think you are 
right, people need to know that there are a whole range of 
things that they can do, and that they are fairly simple. And 
there is a number of people working very hard to get that 
message out.
    Another thing that we really haven't talked about 
explicitly here is, as I like to say, the weather is going to 
win. If you look at Europe in the last 5 years, they have had 
more than eight 1-in-500-year weather events. They have been 
inundated with very severe weather events, and we have been 
very fortunate in the States that we have not. And I personally 
don't see why our luck will hold for a long period of time. And 
so ultimately the weather has been convincing people around the 
planet.
    I have been working with eight developing countries on 
adapting to climate change. And people on the ground are seeing 
changes. They are seeing them faster than what we are seeing in 
the scientific literature. And you go out on the ground, and 
people know what is going on.
    Mr. Inslee.  Anyone else want to take a stab at that?
    Dr. Hansen.
    Mr. Hansen.  I would like to comment that we need to 
educate the public about the fundamental difference between 
this climate problem and prior global problems such as air 
pollution when we are talking about particles in the 
atmosphere, because in that case we could see the effects, and 
we could take actions, and the effect of our actions would be 
immediate because particles fall out within 5 days.
    In the case of the climate problem, what is very clear to 
the scientists is that there is a long time constant, so we 
have only felt part of the impact of the gases that are already 
in the atmosphere. And the physics is straightforward. So it 
makes it a much more dangerous problem because of this lag 
effect. And the proof of that is in the fact that we can prove 
that the planet is out of energy balance. There is more energy 
coming in than is going out, and it is going into the ocean, 
and that means that we have got almost as much warming in the 
pipeline as we have already seen. And as we have heard this 
morning, even the 7/10 of a degree that we have seen is 
noticeable. So we need to make these sort of simple facts 
clearer to the public.
    Mr. Inslee.  I want to ask you about the economics of this 
issue. We heard some people argue that we should just do 
nothing about this because it might have some impact on our 
economy. And that strikes me it would be an interesting 
academic exercise except they always forget the economic losses 
we will have from inaction.
    Now, the most comprehensive review I have seen is the 
Stearn's report that suggests we will have I think it almost a 
5 percent reduction in global GDP ultimately if we remain on 
this course of inaction. Could any of you comment on that and 
how we should think of that?
    The Chairman.  The gentleman's time has expired. I would 
like to be able to recognize the other panels who have come 
back, but the panel, please, very quickly answer that question, 
anyone who would like to take it.
    Ms. Parmesan.  Well, as I have said earlier, we are already 
seeing economic impacts as small islands and States' coastal 
areas that rely on coral reefs are already seeing huge economic 
losses.
    The Chairman.  Anyone else?
    The gentleman's time is expired.
    The Chair recognizes the gentleman from Oklahoma, Mr. 
Sullivan, for 7 minutes.
    Mr. Sullivan.  Thank you, Mr. Chairman. I just have a few 
questions I would like to ask the entire panel, and I do 
appreciate you being here today, and I appreciate your 
testimony.
    What action should the Federal Government undertake to 
reduce CO<INF>2</INF> emissions?
    Dr. Hansen.
    Mr. Hansen.  I mentioned several things in my testimony. I 
think the most critical thing concerns coal, because coal has 
far more CO<INF>2</INF> than oil and gas. And oil and gas are 
very convenient mobile fuels, but coal can be used for power 
plants. And in that application it is practical to capture the 
CO<INF>2</INF> and sequester it, and we are talking about doing 
that, but until we have that technology, we shouldn't be 
building any more coal-fired power plants with the old 
technology because it is going to become very clear within, I 
would say, less than 10 years that these old power plants are 
going to have to be bulldozed. So it is economically stupid to 
build them.
    Mr. Sullivan.  What kind of time frame do you think these 
technologies of sequestration can be competitive with other 
fossil fuels?
    Mr. Hansen.  It is expected it is still going to take 
another 6 or 8 years to have full-scale carbon sequestration 
for power plants. You could speed that up maybe a couple of 
years. But in the interim there is plenty of potential in 
energy efficiency that we can avoid the need for new coal-fired 
power plants if we would encourage energy efficiency. The 
building engineers and builders realize that they can make the 
new buildings 50 percent more efficient right now. The 
technology is available for that, and we need to encourage that 
and see that it happens.
    Mr. Sullivan.  So you think coal, did you say, would 
eventually be out of the equation totally?
    Mr. Hansen.  I think coal is very likely to be a major 
energy source, but it should be used in a way that doesn't put 
the CO<INF>2</INF> into the atmosphere.
    Mr. Sullivan.  By using technologies and things like that, 
right?
    Mr. Hansen.  With the sequestration technology, yeah.
    Mr. Sullivan.  What other technologies do you think we 
could use?
    Mr. Hansen.  I think that we should let the market decide 
what are the most effective technologies. That is why I say we 
need to have--the market needs to understand that there is 
going to be a gradually rising price on the emissions, and if 
that were the case, then the different renewable energies and 
energy efficiency itself could compete very effectively. There 
is tremendous potential in energy efficiency and in renewable 
energies, so that is why I say the best way to do it is to put 
a rising price on the emissions and then let them compete.
    Mr. Sullivan.  Dr. Curry.
    Ms. Curry.  In the past two decades we have spent so much 
time saying is it really warming, are we really causing it? And 
we are just now coming to the, well, what are we going to do 
about it?
    I believe that what we need to spend some time--not delay, 
but spend some time--to really assess the policy options and 
what their implications are for the economy, what their 
feasibility are, and what their political viability are. And I 
think without recommending specific policies, I think we need 
to fundamentally change the incentive system in terms of how we 
do things so that we can promote effective dealing with this 
issue.
    Mr. Sullivan.  Sounds good.
    Ms. Parmesan.  I couldn't agree more with both people who 
came before me. There are a couple things I wanted to add. One 
is that we have an enormous amount of technology that we are 
not using. Carbon sequestration is actually doable right now in 
certain areas. For instance, the Texas coast, where you have a 
huge number of coal-fired plants, is right next to an enormous 
salt dome. The technology exists for doing it, but they need 
the infrastructure, and no money is being put forward to do 
this. Better more fuel-efficient cars, we have the technology; 
again, there is not the incentive for people to buy them.
    In terms of renewable energy, it is very nice in theory, 
but a lot of the renewable energy alternatives do have negative 
biodiversity consequences. Sometimes they are fine, as you will 
see in my written testimony; in other cases they are not. So 
those need to be looked at carefully before just sort of 
jumping on the bandwagon and saying we should put up windmills 
everywhere and we should convert everything to biodiesel.
    Solar panels. Solar energy is perhaps the single one that 
has absolutely no negative consequences in terms of 
biodiversity as far as I know. The technology again is there. 
It is not being implemented as much as it could be.
    Ms. Ebi.  In addition to looking at technologies, you have 
an opportunity here to take a look at other policies. I have 
worked quite a lot in Europe, and Europe is redoing its 
transport policies, in part in response to reducing emissions 
from cars, but also to try and address problems with growing 
obesity and trying to create communities where people can walk 
to work.
    So you can look at a broad range of things that ultimately 
come under the rubric of energy efficiency, but if you look 
more broadly, you will find places where you can make a change 
that will help in areas more than just emissions.
    Mr. Sullivan.  Dr. Helms.
    Mr. Helms.  I would like to comment in terms of renewables. 
I think there needs to be a level playing field relative to the 
tax incentives that are used to encourage wind and geothermal, 
which happen to be about twice the incentive that is for woody 
biomass. So I think it would be helpful to take a look at that 
and see whether these incentives for renewables could be made a 
little more equitable.
    Mr. Sullivan.  Another question I have. Do you feel 
strongly that nuclear energy could be part of a climate change 
solution which should be a big part of the mix?
    Dr. Hansen.
    Mr. Hansen.  I think it needs to be looked at. As you know, 
there are still some disadvantages with nuclear power, but the 
next-generation nuclear power, the current potential for 
nuclear power can solve some of the problems that are 
associated with potential accidents, for example. Nuclear power 
does not produce CO<INF>2</INF>, so it is--if consumers are 
willing to have nuclear power plants, then it certainly should 
be part of the mix.
    The Chairman.  The gentleman's time is expired. I apologize 
to the gentleman, but I just have time to let the gentleman 
from Connecticut be recognized for 5 minutes before we all have 
to run over for the roll call. The gentleman is recognized.
    Mr. Larson.  Thank you, Mr. Chairman. I want to thank the 
panelists as well, and I want to commend all of you.
    And, Dr. Hansen, let me say to you that I agree with you 
about the establishment of a czar. I recommend that the czar be 
Alan Greenspan. I think that it would make an awful lot of 
sense. And as Shakespeare would say, more truth is said in jest 
than not. But when we sort all through this, and you have been 
questioned by everyone not necessarily in your field, but on 
the economics and legislation of this, and I do think that it 
has been noted through a number of the testimony that we have 
heard to date since the committee's inception about the need 
for financial platforms and the need to make sure that we have 
the wherewithal to deal with this issue, and having someone 
like Alan Greenspan in the position of a czar who could oversee 
ultimately monies that would have to be granted or the benefits 
of a cap in trade policy.
    So I want to cut to the chase, given that it doesn't seem 
as though anyone on the panel doesn't agree that climate change 
is imminent and that it could be disastrous if we don't act now 
and too late, but that means outside from all the good policy 
issues, et cetera, making sure that we have the financial 
capability to do so.
    And so in your testimony, Dr. Hansen, but we didn't get a 
chance to hear from the rest of the panelists as well, you talk 
about a form of carbon tax. I would call it more an 
antiterrorist tax, inasmuch as we heard testimony on national 
security that this is really a national security issue, et 
cetera. But there is a tendency for these things to be talked 
about in a way that avoids the issue, much like the issue has 
been avoided of addressing global warming and climate change 
itself as to how we are going to pay for it. And if you 
followed Representative Sensenbrenner's questioning, he was 
asking you to come up with the pricing of what that would be. I 
think that might be best left up to another body.
    But would you all readily agree--or at least I would like 
to hear your opinion on whether or not you think that this kind 
of a tax or front, shall we say, is something that if we don't 
do, I just don't think we can continue to kid ourselves that we 
won't have the monies available to do the various things that 
you want to do with forestation from a biological standpoint or 
from the standpoint of making sure that we are able to preserve 
the West Antarctic Ice Sheets.
    We will start with Dr. Hansen.
    Mr. Hansen.  There is no reason that a tax has to be a 
reason for the government to get deeper into your pockets 
overall. You can have some compensation elsewhere. But I do 
think there has to be a price on these emissions. They are not 
paying for the costs that they are incurring. And so I think it 
is essential. To solve the problem we are going to have to put 
a price on the emissions. It is just too easy. Some of these 
fuels are so easy, so cheap to mine.
    Mr. Larson.  So what you are saying is to do that further 
up the line, so to speak, than actually in the consumer. Some 
would argue that they will pass that along to the consumer, but 
I assume that is what you are talking about.
    Mr. Hansen.  Frankly, I am not a person to say where that 
price should be imposed, but it has got to be there so that the 
person who is using the energy will feel a difference if he 
conserves the energy.
    Mr. Larson.  Thank you, Dr. Hansen.
    Dr. Curry.
    Ms. Curry.  Right now carbon emissions are an externality. 
We basically do it for free. The key issue is to put a value on 
the carbon.
    Mr. Larson.  Who would you recommend place that value?
    Ms. Curry.  I don't know.
    Mr. Larson.  A combination of scientists and, say, 
economists?
    Ms. Curry.  I would guess so. But the key issue is to 
change the incentive structure relative to that value.
    Mr. Larson.  Dr. Parmesan.
    Ms. Parmesan.  I agree. I think we need to do things that 
will change individual behaviors. And I just want to bring up 
one example that Britain has done that brought in a lot of 
taxes, but it allows the consumers to actually choose how much 
tax they are going to pay. So, for instance, the yearly car 
registration there is based on the amount of carbon dioxide 
emissions, nothing else. And it goes from zero up to $400, and 
that top end is about to go up to $800. So as a consumer you 
can choose to buy a car where you have zero tax.
    The Chairman.  We have 1 minute to make the roll call on 
the House floor. We thank the panel. We are going to take a 
brief recess, and then other Members will come back, and I will 
recognize them at that time. The committee will reconvene. 
While we are waiting for the members to come back out, I will 
ask some questions.
    You have noted that our increasing hurricane risk is a 
combination of changes from global warming and societal 
changes. We noted in the Gulf of Mexico we have lost area 
highlands and wetlands over the last few decades.
    Is restoring these natural barriers one of the ways we can 
prepare for stronger hurricanes? What are some of the other 
policies that you would suggest?
    Ms. Curry.  Well, I think the issue with hurricanes is an 
issue where adaptation policies do make sense. Restoring the 
wetlands, I think, is something that makes very much sense in 
New Orleans.
    How this is going to do it--how to do this most effectively 
and have it help, effectively limit our damage on a time scale 
that is going to get us through these next few decades, I am 
not an expert on this. But I will emphasize that I think that 
adaptation, particularly on the gulf coast, is something that 
will help the issue address the threat that we see, 
particularly in the coming--the threat is upon us, and it is 
going to be increasing fairly rapidly in the next few decades.
    The Chairman.  Dr. Hansen, you mentioned that the entire 
East Coast could be at risk and especially Florida. Could you 
elaborate a little bit on that? And what is the cause of the 
most likely threat that you can see to the East Coast of the 
United States and to Florida, and what is the time frame you 
are talking about?
    Mr. Hansen.  Well, the--we know that if you go back a few 
million years ago, that sea level was 25, plus or minus 10 
meters higher. We know there are actually so-called 
``Orangeburg scarp'' which show where the shoreline was. We 
would lose cities from Boston, New York, Philadelphia, 
Washington, if we were to get a comparable sea level rise.
    Now, the question of how long does it take ice sheets to 
respond to a forcing is the big question, and that is 
practically impossible. You can't make a precise prediction on 
when a nonlinear process is going to go unstable, but we know 
that the time constant from looking at the Earth's history is 
not longer than centuries.
    The Chairman.  Is the threat to the East Coast of the 
United States more from Greenland or from the west Antarctic; 
or does it make a difference, in other words?
    Mr. Hansen.  It is from both, but west Antarctica is the 
one that can respond more quickly because it is a marine ice 
sheet which, as I say, has been attacked from both below and 
above. So, frankly, I think that the experts that I--in 
glaciology that I respect the most are very concerned that 
there could be sea level rise this century measured in meters; 
and no one wants to speculate on a number or when you start 
getting a very large effect, but just at what is already 
happening. Over just the last 100s of years, the rate of sea 
level rises increased from 12 centimeters per century to, now, 
35 centimeters per century. So it is already more than a foot 
per century, and it is getting higher all the time.
    The Chairman.  Let me turn to recognize the gentlelady from 
Tennessee, Ms. Blackburn, for 7 minutes.
    Mrs. Blackburn.  Thank you, Mr. Chairman, and I truly want 
to express my appreciation to you all for enduring with us as 
we go through votes and running back and forth to the floor. As 
you can see, we get plenty of exercise around here.
    I have questions for Dr. Hansen, Dr. Curry and Dr. Ebi, and 
I think I will start with you, Dr. Ebi, if I may.
    With the IPCC report--and, Mr. Chairman, I have a summary I 
want to submit for our record. It is an independent summary for 
policymakers of the IPCC report; and I would like, with your 
permission, sir, to submit this for our record.
    The Chairman.  I apologize.
    Mrs. Blackburn.  That is okay. I just want to submit--I 
have got an independent summary for policymakers.
    The Chairman.  Without objection, it will be included.
    [The information follows on page 143.]
    Mrs. Blackburn.  Thank you, sir. I appreciate that.
    But, Dr. Ebi, some of the disasters, many of the disasters 
from--the IPCC report, which is helpful in going through this 
and being able to look at different things is very helpful to 
us--these are going to occur from time to time and have seemed 
to occur throughout history regardless of global warming and 
whether or not that plays a role.
    And when you are looking at this, shouldn't they be faced 
directly? Hurricanes, droughts, diseases, things of that nature 
be faced directly, irrespective of global warming, just as 
stand-alone causes, rather than having to wait or address it 
via the global warming filter?
    And my second question to you is, as you look at your 
report and then as you read about economists and scientists who 
talk about prioritizing health, water, education, famine, the 
things that we see, hunger, things that we are seeing happening 
in some of our developing nations, prioritizing that first 
before those countries address global warming?
    So how do you stack that up in your thought matrix?
    Ms. Ebi.  The two questions are related. The things that we 
are worried about with climate change, most of them are risks 
to health right now; and there are very large programs to try 
to reduce those risks, because we do like to save human lives. 
We don't like to see people suffer and die needlessly when we 
can prevent that.
    What we do see with the projections on climate change--with 
what has already happened since 1961 to 1990, what is happening 
today and what is projected for the future--is that these risks 
are going to increase. And we know that these are putting a 
strain on resources, and that when you get at the country 
level, countries have to make choices of where they are going 
to spend their very scarce dollars.
    Basically what you are asking, in some way, is--one of the 
phrases we use in the States--is robbing Peter to pay Paul, 
saying, why don't you use the resources you already have to 
address increased heat waves, address increased malarial 
deaths? And that money, if it is dealing with those kinds of 
issues, is not going to deal with other issues. It is not going 
to deal with HIV/AIDS, it is not going the deal with obesity, 
it is not going to deal with child malnutrition.
    There is a responsibility here because of the emission of 
greenhouse gasses, and traditionally when we looked at large 
environmental issues, we have looked at where the sources of 
those emissions have been, whether it is an occupational 
exposure, an environmental exposure; and so we need to deal 
with those.
    Mrs. Blackburn.  Okay. And I ask that simply because, as 
you read your report and look at your things--and you don't 
have to respond back to this--it seems that you prioritize the 
global warming issue above the others. And I find--think that 
would be a very difficult position for many of these developing 
nations.
    Dr. Curry, I wanted to ask you, in your report, you use 
hurricane intensity data, 1950 on. And do you consider that 
data, prior to 1950, unreliable?
    Ms. Curry.  I have discussed the issue of data reliability 
extensively in my written testimony. I do not believe the 
intensity data prior to 1970. However, the counts, I believe, 
aren't too bad, even back to 1851. There have been some 
estimates of the uncertainty.
    Mrs. Blackburn.  Just the counts? Not the intensity?
    Ms. Curry.  The intensity I do not believe prior to 1970, 
frankly.
    Mrs. Blackburn.  How much research funding have you 
received to examine the effects of the hurricanes with regards 
to climate change?
    Ms. Curry.  None. Subsidized by Georgia Tech specifically.
    Mrs. Blackburn.  By Georgia Tech.
    And, Dr. Hansen, I wanted to talk with you a minute about 
the hockey stick theory. We had a hearing on that last year on 
the paper that was published by Dr. Mann. And we had 
independent statistical analysis by Professor Wegman and the 
NRC, and they showed some fatal flaws in that paper. And all of 
that was really very interesting to me, because I remember 
growing up in the 1950s and 1960s and being in high school and 
through the early 1970s when we were in an ice age, an ice age 
was coming and we were warned about this ice age.
    So then you turn around and before too long, you have 
children who are in school and it is all about warming, which 
at one point we were told we were supposed to have. But I asked 
Dr. Mann about some of these problems with his paper, and he 
didn't want to answer questions dealing with independent 
statisticians and independent reviews.
    So, to you, what is your opinion on the use of the 
independent statisticians reviewing science papers such as Dr. 
Mann's and others who analyze large amounts of data that are 
used for temperature reconstructions?
    Mr. Hansen.  Well, I think that data that scientists use 
for their analyses should be made available.
    But, you know, this is kind of a red herring; and I think 
if you look in my testimony, I have found other data that we 
can look at to see how the current temperature compares with 
earlier temperatures on the Earth. What we see is that, 
especially in the most important regions, tropical oceans, that 
the recent warming is indeed rapid and is putting us back two 
levels that are at least comparable to the warmest in the 
current interglacial period and within less than 1 degree 
Celsius of the warmest interglacial period in the past million 
years.
    So the basic conclusion of Mike Mann that the recent 
warming is sudden and is taking us into new territory is a 
valid conclusion, even though you might question some of the 
mathematical methods.
    The Chairman.  The gentlelady's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver.  Thank you, Mr. Chairman.
    I will move quickly, and I apologize again, as the chairman 
has, that we had to leave you here while we went to vote.
    I have--my family is in Tanzania. They live in Arusha, in 
and around Arusha. I haven't been there since 1995, but I flew 
into the airport; it is called the Kilimanjaro Airport. I 
landed at the Kilimanjaro Airport which is in the shadow of the 
mountain. Flying in or flying out in 1995, I saw what my 
ancestors saw 2,000 years ago which--what they called the 
``whitecap'' worn by the mountain.
    It takes 3 days to climb Kilimanjaro, and I have a cousin 
who does it once a year. You start out at the bottom with 
shorts, warm--you have to deal with the warmth--but by the time 
you get to the top, you have to have a jacket because it gets 
cold.
    Now you can go from the bottom to the top with virtually no 
temperature change, and most of the snow is gone, which the 
Masai tribe in the area in which--my relative is one of the 
elders. They said that they attribute demonic causes because it 
has always been there.
    They have in Arusha, there is one little source of water 
and people wash their cars in it and then boil it and then do 
all kinds of things with it. But not far from the downtown area 
are sprinklers going 24 hours a day just watering exotic 
flowers so that people in the Western world can have fresh 
flowers each day.
    This is not an industrialized country. The average income 
is below $1,500 a year. They didn't--they didn't do anything to 
contribute to this problem. And so what--you can stand out in 
an open field in the Serengeti at night and see the craters on 
the moon. You know, the sky is clear. There is no factories 
anywhere in the country.
    What can we do in a country like Tanzania? Any of you? Dr. 
Ebi?
    Ms. Ebi.  I had the privilege last year to work on a 
project funded by USAID in Mali, working with farmers in the 
southern part of Mali to try and adapt to climate change. 
During the year in which I worked there, the Mali Mission 
reported that their budget had been cut 50 percent.
    USAID is doing marvelous work around the world, helping 
people right now adapt to current climate variability; and I 
have to say, in that region, the farmers reported the 
temperatures have gone up several degrees, water availability 
has gone down.
    No one has mentioned here that when it is warmer, you get 
more evaporate transformation from the soil, the soil gets 
drier. We have had a decrease in rainfall in sub-Saharan 
Africa, and these farmers have done everything their ancestors 
have taught them to do, and they are turning to any external 
source that will help them to figure out how they can increase 
their crop yields. They are changing their seed varieties; they 
are changing the way they are planting. They are innovating in 
ways that their ancestors never did, and they still need more 
help.
    There is a lot that we can do. There are organizations such 
as the Global Environment Facility that is funding adaptation 
work around the world. I am working with the World Health 
Organization in seven other countries on this very issue. There 
is USAID. We have got a lot of different mechanisms whereby we 
can get money to different organizations and different donors 
to help the people that are working right now to reduce 
vulnerability.
    Mr. Cleaver.  You mentioned earlier that this is a social 
decision. This is a choice, social choice, that we are 
contributing in the Western world by supporting what I think is 
a sinful use of water in those countries so that we can have 
exotic plants in the hotels in downtown Washington.
    Ms. Ebi.  And you didn't mention my personal favorite 
soapbox. Look at how many golf courses go into regions that 
don't have enough water; they use an awful lot of water.
    Mr. Helms.  I had the pleasure of being in Tanzania a month 
ago and was impressed to see the amount of woody biomass that 
women had to carry; and so it reinforces the point that in the 
world at large, most of the wood in the world at large is used 
for fuel, fuel for heating in developing countries.
    And so one issue that would be of concern is, what ways and 
means can there be in Tanzania to assist in developing 
reforestation projects that take the burden off the women who 
are having to carry fuel for such a long distance to make woody 
biomass a little more readily available?
    Mr. Cleaver.  Thank you.
    Let us assume that the world experiences an epiphany, and 
everyone decides today at 1 o'clock that we are going to do the 
right thing ecologically and environmentally.
    Based on something that Dr. Helms said, it is still a bit 
chilling to me that if CO<INF>2</INF> has the shelf life of 500 
years. If we stopped everything today, what are the problems 
that would continue?
    Ms. Ebi.  Several people have mentioned we are committed to 
at least another 1 degree Fahrenheit of warming.
    Mr. Cleaver.  No matter what?
    Ms. Ebi.  We are committed to more warming no matter what.
    There was on the back table something from the National 
Environmental Trust; I am sorry they have run out. It is a 
temperature chart showing what has happened--based on the IPCC, 
what has happened with current warming and what is projected 
with each degree of temperature.
    And I can give you the Web address to download that. It is 
a nice summary.
    The Chairman.  The gentleman's time has expired.
    Mr. Hansen.  Could I make a quick comment, an optimistic 
comment?
    Currently, of the CO<INF>2</INF> that we put into the 
atmosphere, 42 percent is taken up by the ocean or biosphere. 
If we reduce our emissions sufficiently, it is possible to 
actually decrease atmospheric CO<INF>2</INF> and avoid a lot of 
problems that people are beginning to argue--are beginning to 
feel are inevitable.
    I don't think they are inevitable. It is going to take 
major actions. People haven't yet realized how serious the 
problem is and what actions are required. But it is possible to 
deal with these things.
    The Chairman.  You are saying they could actually come back 
from the parts per million, from 380 parts per million back 
down?
    Mr. Hansen.  Absolutely. That is when I am talking about 
drawing it down with biofuel power plants. You actually draw 
down the amount of CO<INF>2</INF> in the atmosphere.
    The Chairman.  So it is not irreversible?
    Mr. Hansen.  It is not irreversible. But, of course, if you 
go too far and the ice sheet collapses, that is irreversible on 
time scales of less than tens of thousands of years. So you 
have got to start taking your actions soon enough.
    The Chairman.  What is the number one action that you would 
say----
    Mr. Hansen.  The number one action is a moratorium on new 
coal-fired power plants.
    The Chairman.  And then what would happen if there was a 
moratorium in terms of the reversing and reducing. What is the 
phenomenon that would unfold that would--that would remove the 
carbon from the----
    Mr. Hansen.  Right now, as I mentioned, you know, 40 
percent of the emissions are taken up. So if you reduced your 
emissions tomorrow to 50 percent, you would get a slight uptake 
for at least some years.
    But if you really want to draw it down, then start 
sequestering the CO<INF>2</INF>. If you burn biofuels in a 
power plant, for example, and sequester the CO<INF>2</INF>, the 
biofuels are drawing the CO<INF>2</INF> out of the atmosphere 
and you are putting it back where it came from, in the ground.
    The Chairman.  Thank you, sir.
    Well, you know, we can adjourn this.
    What I am going to ask each one of you is to give us a 1-
minute summation of what it is that you want us to remember.
    We will come back from you, Dr. Helms. But I am just 
wondering if Mr. Cleaver or Mr. Hall, do you have any final 
question you would like to ask?
    Mr. Hall.  Thank you, Mr. Chairman. I have just a couple of 
them.
    One is too elementary probably for all of your degrees. You 
are overqualified, in other words. But methane was talked about 
before, and I was curious if by capturing methane from 
landfills or from farm waste or from wherever and burning it, 
which produces, among other things, CO<INF>2</INF>, would that 
not be an improvement over just allowing the methane to escape 
into the atmosphere?
    Mr. Hansen.  Yes. That is--that helps. You do produce 
CO<INF>2</INF>, but it has much less of a greenhouse effect 
than the methane.
    Ms. Ebi.  This is certainly outside of my expertise.
    I have listened to many economists and climatologists 
debate this, and they are viewing these kinds of technologies 
essentially as a safety valve; if climate change starts going 
even more rapidly than it has been, the question is, when do 
you want to deploy that technology. Do you want to deploy it 
today, or if you are concerned about the rate of warming in 10 
years, do you want to do it in 10 years?
    So, again, it comes down to choices of when you play that 
card, of when it would be most effective to try to reduce the 
most impacts.
    Mr. Hall.  Thank you.
    And in my county, the five counties that I represent, which 
are all currently under a disaster declaration because we have 
had three 50-year floods in the last 18 months, can I tell 
people where there is no proof of cause, it nonetheless is 
consistent with what models show of extremes of weather 
phenomena as the climate changes?
    Anybody can take that.
    Mr. Hansen.  I mean, we know that the extremes do increase 
as the globe gets warmer; the extreme events and, in 
particular, the hydrologic cycle do get greater. And it is 
reasonable to expect that the 100-year floods are going to be 
more frequent, especially in the eastern U.S., I think.
    Mr. Hall.  Thank you, Mr. Chairman. That is all I have.
    The Chairman.  I thank the gentleman.
    Mr. Hansen, you have a new paper coming out?
    Mr. Hansen.  Yeah. I have four new papers coming out, which 
I listed in my written testimony; part of my testimony today is 
based on those papers, yes.
    The Chairman.  If there was a headline over what you were 
adding to what you have said in the past, what would that 
headline be?
    Mr. Hansen.  I think the headline which has become clear in 
the last year or two is that the level of dangerous human-made 
interference is a lot lower than we thought a few years ago. We 
had thought, well, a couple of degrees, maybe we can deal with 
that. But I don't think the west Antarctic ice sheet has a 
prayer even if we go 1 degree Celsius warmer than now.
    But in a sense that is good news, because it means we are 
going to have to figure out how to solve--how to meet that cap, 
and it is going to solve a lot of these other problems that we 
were beginning to think we are going to have to adapt to. Maybe 
we can mitigate them.
    The Chairman.  Let us turn, and we will ask each one of you 
to give us your 1-minute summation.
    Dr. Helms, please, whenever you are ready.
    Mr. Helms.  I would like to leave the message that forests, 
although they won't solve the issue, they are a terribly 
important component.
    The first thing that needs to be done is to make sure we 
stabilize the forestland base and look at why it is that we are 
losing 1 million acres a year to development, why are there so 
many disincentives to small, private landowners to sell our 
land.
    The second thing that we have really got to come to grips 
with is wildfire and enhancing forest health, particularly on 
public lands. We have got to do something about this because it 
is going to get worse.
    And the third thing I would leave is to take a realistic 
look at renewable wood from the standpoint of its carbon 
footprint, life cycle assessment, comparison with alternative 
products and its use for biofuels and wood pellets.
    There is every reason why we should be using more wood, not 
less.
    The Chairman.  Okay. Thank you, Doctor, very much.
    Dr. Ebi.
    Ms. Ebi.  I would like to leave just a couple of messages. 
We are seeing climate change already. The people who are 
working on this issue are very concerned because we are seeing 
it more rapidly and much sooner than had been expected. We do 
need to mitigate and we do need to adapt and we do need to do 
both of those urgently. Your leadership is required in order to 
do so.
    I urge everyone not only to focus on what we need to do 
about mitigation. Adaptations are a win-win which should be 
something that you should be able to create a policy around, 
You have got agencies that are working on that issue right now; 
have them be responsible for responding, taking the risks and 
responses of climate change into account in the policies that 
they create.
    The Chairman.  Thank you, Doctor.
    Dr. Parmesan.
    Ms. Parmesan.  Yes. I would like to say that ``business as 
usual'' leads to the worst case scenario, which is this 4 or 5 
Centigrade rise that we cannot afford in terms of biodiversity 
laws, in terms of human health, or in terms of our economic 
systems. And the only way to keep down to the best case 
scenario, which is still more than twice what we have already 
seen, is by immediate implementation of whatever use you can 
come up with that would reduce CO<INF>2</INF> and other 
greenhouse gas emissions.
    The Chairman.  Dr. Curry.
    Ms. Curry.  I am relieved to see that the U.S. Federal 
policymakers are beginning to accept that dangerous climate 
change is upon us if we continue with business as usual and are 
now asking the question, what are we going to do about it. 
Again, I urge you to consider both adaptation and mitigation 
strategies.
    And I would also like to add that there is--as we deal with 
this complex and urgent problem, there is much room for 
mischief in policy-making that would not--that would have 
unintended consequences and not meet the objectives, all sorts 
of opportunities for pork and all sorts of problems. I urge 
careful consideration, complex, you know, analysis of the 
policy options so we get something that will be effective, 
economically feasible and politically viable.
    The Chairman.  Thank you very much.
    Dr. Hansen.
    Mr. Hansen.  I would like you to have in your mind the 
chart that is in my testimony, a bar graph showing that oil and 
gas are relatively small bars, coal is huge and the 
unconventional fossil fuels are huge.
    Now, the oil and gas are very valuable fuels, and we need 
to stretch them until we can get to the next--beyond petroleum. 
But because any of these fossil fuels, you put the carbon in 
the atmosphere, it is going to stay there a long time, so we 
can't afford to put the coal and the unconventional fossil 
fuels in the atmosphere.
    So if we are going to use those, we are going to have to 
capture the CO<INF>2</INF> and sequester it.
    The Chairman.  You said unconventional fossil fuels.
    Mr. Hansen.  I mean tar shale, tar sands, methane hydrates. 
There is a tremendous amount of those, and we just--and there 
are companies that are making plans to cook the Rocky Mountains 
and drip oil out of them. It is very energy intensive, and the 
planet is sunk if we allow that to happen.
    The Chairman.  Thank you very much.
    Mr. Cleaver.  I have a suggestion on a paper for you. Thank 
you for agreeing.
    China signed the Kyoto Protocol, and they are starting a 
new coal-fired power plant every 3 days. Could you write a 
paper on what you think they would be doing had they not 
signed?
    The Chairman.  I thank the gentleman very much.
    I want to, first of all, thank you, each of you. You 
brought a lot of expertise to this committee.
    Speaker Pelosi has only been in office now for 4 months. 
She is only creating one select committee for her first 2 years 
as Speaker; it is the Select Committee on Energy Independence 
and Global Warming. And so I think you can actually feel the 
whole system responding to this intense interest which the 
Speaker has in this issue and her public announcement that she 
intends on passing legislation with a mandatory cap and trade 
system within this 2-year period.
    So this testimony helps us a lot. It actually helps to 
build the momentum. It helps us to understand the issue better 
and to take a smart action that not only won't harm our economy 
but in the long run, help our economy, which is, I think, the 
surprise ending as long as we work smarter, not harder, and 
deal with this in a wise way.
    And so your testimony has been very helpful. We look 
forward to any other advice that you might want to give the 
select committee in the months ahead, because we intend to be 
putting together a very intensive work schedule.
    With that, this hearing is adjourned.
    Thank you.
    [Whereupon, at 1:10 p.m., the select committee was 
adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
